<html>
<title> - FROM LAB TO MARKET: ACCELERATING OUR PROGRESS TOWARD ECONOMIC RECOVERY AND A CLEAN ENERGY FUTURE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                          FROM LAB TO MARKET:
                       ACCELERATING OUR PROGRESS
                        TOWARD ECONOMIC RECOVERY
                       AND A CLEAN ENERGY FUTURE

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                      COMMITTEE ON SCIENCE, SPACE,
                             AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             July 17, 2020

                               __________

                           Serial No. 116-77

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


       Available via the World Wide Web: http://science.house.gov
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-803PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
LIZZIE FLETCHER, Texas               BRIAN BABIN, Texas
HALEY STEVENS, Michigan              ANDY BIGGS, Arizona
KENDRA HORN, Oklahoma                ROGER MARSHALL, Kansas
MIKIE SHERRILL, New Jersey           RALPH NORMAN, South Carolina
BRAD SHERMAN, California             MICHAEL CLOUD, Texas
STEVE COHEN, Tennessee               TROY BALDERSON, Ohio
JERRY McNERNEY, California           PETE OLSON, Texas
ED PERLMUTTER, Colorado              ANTHONY GONZALEZ, Ohio
PAUL TONKO, New York                 MICHAEL WALTZ, Florida
BILL FOSTER, Illinois                JIM BAIRD, Indiana
DON BEYER, Virginia                  FRANCIS ROONEY, Florida
CHARLIE CRIST, Florida               GREGORY F. MURPHY, North Carolina
SEAN CASTEN, Illinois                MIKE GARCIA, California
BEN McADAMS, Utah                    THOMAS P. TIFFANY, Wisconsin
JENNIFER WEXTON, Virginia
CONOR LAMB, Pennsylvania
                                 ------                                

                         Subcommittee on Energy

                HON. LIZZIE FLETCHER, Texas, Chairwoman
DANIEL LIPINSKI, Illinois            RANDY WEBER, Texas, Ranking Member
HALEY STEVENS, Michigan              ANDY BIGGS, Arizona
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
JERRY McNERNEY, California           MICHAEL CLOUD, Texas
BILL FOSTER, Illinois                JIM BAIRD, Indiana
SEAN CASTEN, Illinois
CONOR LAMB, Pennsylvania
                        
                        
                        C  O  N  T  E  N  T  S

                             July 17, 2020

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Lizzie Fletcher, Chairwoman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     7
    Written Statement............................................     8

Statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     9
    Written Statement............................................    10

Written statement by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    11

Written statement by Representative Randy Weber, Ranking Member, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    11

                               Witnesses:

Ms. Jetta Wong, President, JLW Advising and Former Director, 
  Office of Technology Transitions, U.S. Department of Energy
    Oral Statement...............................................    13
    Written Statement............................................    15

Ms. Jennifer States, Director for Blue Economy, DNV GL and 
  Project Director, Washington Maritime Blue
    Oral Statement...............................................    29
    Written Statement............................................    31

Ms. Farah Benahmed, Climate and Energy Policy Advisor, Third Way
    Oral Statement...............................................    39
    Written Statement............................................    41

Dr. Emily Reichert, Chief Executive Officer, Greentown Labs
    Oral Statement...............................................    50
    Written Statement............................................    52

Dr. Lee Cheatham, Director of Technology Deployment and Outreach, 
  Pacific Northwest National Laboratory
    Oral Statement...............................................    63
    Written Statement............................................    65

Discussion.......................................................    76

             Appendix I: Answers to Post-Hearing Questions

Ms. Jetta Wong, President, JLW Advising and Former Director, 
  Office of Technology Transitions, U.S. Department of Energy....   100

Ms. Jennifer States, Director for Blue Economy, DNV GL and 
  Project Director, Washington Maritime Blue.....................   104

Ms. Farah Benahmed, Climate and Energy Policy Advisor, Third Way.   109

Dr. Emily Reichert, Chief Executive Officer, Greentown Labs......   110

Dr. Lee Cheatham, Director of Technology Deployment and Outreach, 
  Pacific Northwest National Laboratory..........................   115

            Appendix II: Additional Material for the Record

Letter submitted by Representative Daniel Lipinski, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   118

Letters submitted by Representative Ben Ray Lujan, U.S. House of 
  Representatives................................................   120

Article submitted by Ms. Jetta Wong, President, JLW Advising and 
  Former Director, Office of Technology Transitions, U.S. 
  Department of Energy...........................................   123

 
                          FROM LAB TO MARKET:
                       ACCELERATING OUR PROGRESS
                        TOWARD ECONOMIC RECOVERY
                       AND A CLEAN ENERGY FUTURE

                              ----------                              


                         FRIDAY, JULY 17, 2020

                House of Representatives,  
                  Subcommittee on Energy,  
               Committee on Science, Space, and Technology,
                 Washington, D.C.          

     The Subcommittee met, pursuant to notice, at 1:33 p.m., 
via Webex, Hon. Lizzie Fletcher [Chairwoman of the 
Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

     Chairwoman Fletcher.  This hearing will come to order. I 
have my gavel. And without objection, I'm authorized to declare 
a recess at any time.
     Before I deliver opening remarks, I want to note a few 
things because this Committee is meeting today virtually, and 
there are a couple of reminders for the Members about the 
conduct of the hearing before we get started.
     First, Members should keep their video feed on as long as 
they are present in the hearing. Members are responsible for 
their own microphones. Don't start talking when you're muted, 
as I just did. Please also keep your microphones muted unless 
you're speaking. And finally, if Members have documents they 
wish to submit for the record, please email them to the 
Committee Clerk, whose email address was circulated prior to 
the hearing.
     One more matter before we get going, we may have Mr. 
Lujan, who is not a Committee Member, but may try to join us 
today. He's very interested in these topics. And if there's no 
objection, we will allow him to join the hearing.
     OK. Hearing no objections, we will welcome Mr. Lujan if 
he's able to join us.
     We'll now proceed to our opening remarks and then move on 
to the panelists.
     So, good afternoon, and thank you all to--for being here 
today virtually, and thank you to our witnesses that are 
joining us. And I'm excited this afternoon to discuss the 
importance of advancing the commercialization of new energy 
technologies as an important component of our economic recovery 
and--from this ongoing health crisis.
     Here in Houston, we're the Nation's energy leaders, and we 
believe in an all-of-the-above approach. Texas produces more 
energy than any other State, and we are always coming up with 
new ideas to do things bigger and better. Texas energy isn't 
just the way we get electricity; it's an investment in the 
economic development of our communities and our businesses.
     And while my home State of Texas is well-known for being 
the country's largest oil and gas producer, we are also the 
largest wind energy producer in the country, we are now tied as 
the fourth-largest generator of solar power. We're also leading 
the way in technologies like carbon capture.
     The heart of clean energy lies in supporting 
entrepreneurship, startups, and innovation. Clean energy 
technology faces unique barriers to commercialization that 
other technologies aren't subject to, including high upfront 
capital costs, long development times, and the need to overcome 
incumbent technologies. That's why we need targeted programs to 
overcome these barriers and reap the benefits of investing in 
clean energy.
     The Department of Energy (DOE) has championed several 
important programs to help reduce barriers to commercialization 
of clean energy technology. This includes programs to 
commercialize research done at the national laboratories, 
support clean energy incubators across the Nation, and provide 
business training and other commercialization assistance to 
national lab employees and entrepreneurs.
     These and other programs help bolster the efforts of our 
fantastic panelists here today, each of whom contributes to the 
important mission of strengthening clean energy 
commercialization. I'm especially pleased to have Dr. Emily 
Reichert here on a panel from Greentown Labs. This leading 
clean energy incubator announced last month they would be 
opening a new incubator right here in my hometown of Houston.
     If we do this right, we can position our country to be the 
clean energy technology exporter to the world. Much like the 
space race of the 20th century, our Nation is at a critical 
moment where we can choose to lead the way in developing 21st-
century technologies or we could lose that role to other 
countries who are investing much more in these efforts at this 
time. I will do what I can to make sure we are leaders, not 
followers. Investing in clean energy means investing in the 
economic future not only of Houston, not only of Texas, but of 
our entire country.
     I want to thank again our excellent panel of witnesses 
assembled today, and I look forward to hearing your testimony.
     [The prepared statement of Chairwoman Fletcher follows:]

    Good afternoon and thank you to all of our witnesses that 
are joining us virtually today to discuss the importance of 
advancing the commercialization of new energy technologies as 
an important component of our economic recovery from the 
ongoing health crisis.
    Here in Houston, Texas, we are the Nation's energy leaders 
and believe in an all-of-the-above approach. Texas produces 
more energy than any other state and we are always coming up 
with new ideas to do things bigger and better. In Texas, energy 
isn't just the way get electricity, it's an investment in the 
economic development of our communities and businesses.
    While my home state of Texas is well known for being the 
country's largest oil and gas producer, we are also the largest 
wind energy producer in the country as well and are now tied as 
the fourth largest generator of solar power. We are also 
leading the way in technologies like carbon capture.
    At the heart of clean energy lies supporting 
entrepreneurship, startups, and innovation. Clean energy 
technology faces unique barriers to commercialization that 
other technologies aren't subject to, including high up-front 
capital costs, long development times, and the need to overcome 
incumbent technologies. That's why we need targeted programs to 
overcome these barriers and reap the benefits of investing in 
clean energy.
    The Department of Energy has championed several important 
programs to help reduce barriers to commercialization of clean 
energy technologies. This includes programs to commercialize 
research done at the national laboratories, support clean 
energy incubators across the Nation, and provide business 
training and other commercialization assistance to national lab 
employees and entrepreneurs.
    These and other programs help bolster the efforts of our 
fantastic panelists here today, each of whom contributes to the 
important mission of strengthening clean energy 
commercialization. I am especially pleased to have Dr. Emily 
Reichert here on our panel from Greentown Labs. This leading 
clean energy incubator announced last month that they would be 
opening a new incubator right here in my hometown of Houston.
    If we do this right, we can position our country to be the 
clean energy technology exporter of the world. Much like the 
Space Race of the 20th century, our Nation is at a critical 
moment where we can choose to lead the way in developing 21st 
century technologies, or we could lose that role to other 
countries who are investing much more in these efforts. I will 
do what I can to make sure we are leaders, not followers. 
Investing in clean energy innovation means investing in the 
economic future of Houston, Texas, and our entire country.
    I want to again thank our excellent panel of witnesses 
assembled today and I look forward to hearing your testimony. 
With that, I yield back.

     Chairwoman Fletcher.  And with that, I would like to 
recognize Mr. Weber for an opening statement. I'm not seeing 
Mr. Weber.
     Voice.  Mr. Weber is not currently on the call, ma'am.
     Chairwoman Fletcher.  OK. I'd like to go ahead. I believe 
Mr. Lucas is on the call. I think I see him, so, Mr. Lucas, you 
are recognized for opening remarks if you would like to give 
them.
     Mr. Lucas.  Thank you, Madam Chair. I'm looking forward to 
today's hearing on Federal technology transfer initiatives, 
which is incredibly important to the success of U.S. research 
and development (R&D).
     Technology transfer maximizes the return on investments of 
Federal research dollars by putting groundbreaking technologies 
and scientific discoveries in the hands of the private sector. 
It is an essential component of any plan to maintain U.S. 
leadership in science and technology, and it's why we have a 
history of bipartisan support for it. And supporting our 
Federal research enterprise has never been more important.
     Today, in addition to the task of recovering from the 
COVID-19 pandemic and restarting both our economy and our 
research enterprise, the United States is facing two 
fundamental challenges to our competitiveness and success as a 
nation. First, foreign countries, especially China, are 
threatening to outpace us in science and technology, 
jeopardizing the long-term stability of our supply chains, 
research workforce, and technological growth. Second, we must 
respond to our changing climate and develop next-generation 
technologies to understand it, address it, and manage its 
effects.
     Back in January, I introduced H.R. 5685, the ``Securing 
American Leadership in Science and Technology Act,'' which 
creates a long-term strategy for investment in basic research 
and infrastructure to protect these economic, environmental, 
and national security interests of the United States. A key 
provision of this bill is to provide the effectiveness of 
Federal R&D investments through comprehensive technology 
transfer reform, which promotes both better collaboration 
between the Federal Government and private industry using a 
whole-approach-of-government activity. We need this focus not 
just at the Department of Energy, but also through the National 
Science Foundation (NSF), the Environmental Protection Agency, 
the National Institutes of Standards and Technology (NIST), and 
the Oceanic and Atmospheric Administration.
     We know that our technology transfer capacities are highly 
diverse and extend well beyond the reach of any one agency. 
When we consider technology transfer policy, we must ensure 
that all of our Federal research agencies have tools that they 
require for efficiently and effectively transferring R&D 
outcomes to the private sector where they can be utilized by 
American industry.
     Today's hearing gives us the chance to consider 
legislation to authorize tech transfer activities at the 
Department of Energy. I believe that limiting our technology 
transfer discussion to the scope of a single agency's 
activities, we may be missing out on the big-picture issues, 
collaborative mechanisms, and innovative new ways to facilitate 
technology transfer.
     That said, I support both the concepts outlined within 
these bills, commonsense provisions in the regional clean 
energy innovation partnerships, the small business voucher 
program, and the establishment of signature authority for 
national laboratory directors, an issue we have long championed 
on the Science Committee.
     I believe there are important governmentwide lessons to be 
learned from the technology transfer activities at DOE national 
laboratories, and I am pleased that we have Pacific Northwest 
National Laboratory's (PNNL's) Dr. Lee Cheatham with us today. 
Not only does the doctor serve as the Director of the 
Technology Deployment and Outreach at PNNL, and Chair of the 
National Laboratory Technology Transfer Working Group (NLTT), 
he also brings insight into the broader Federal activities 
through his service on the National Science Foundation Business 
and Operations Advisory Committee.
     And I also want to thank Chairwoman Fletcher for holding 
this hearing and all of our witnesses for their testimony 
today. I commend my friends across the aisle for prioritizing 
this issue and looking forward to a productive and valuable 
discussion. I feel confident that by working together we can 
continue to encourage innovation across the U.S. research 
enterprise and give our Federal agencies the resources they 
need to deliver on our national investment in science and 
technology.
     And with that, I yield back, Madam Chair.
     [The prepared statement of Mr. Lucas follows:]

    I'm looking forward to today's hearing on Federal 
technology transfer initiatives, which is incredibly important 
to the success of U.S. research and development.
    Technology transfer maximizes the return on investment of 
Federal research dollars by putting groundbreaking technologies 
and scientific discoveries in the hands of the private sector. 
It is an essential component of any plan to maintain U.S. 
leadership in science and technology, and it's why we have a 
history of bipartisan support for it. And supporting our 
federal research enterprise has never been more important.
    Today, in addition to the task of recovering from the 
COVID-19 pandemic and restarting both our economy and our 
research enterprise, the United States is facing two 
fundamental challenges to our competitiveness and success as a 
nation:
    First, foreign countries, especially China, are threatening 
to outpace us in science and technology, jeopardizing the long-
term stability of our supply chains, research workforce, and 
technological growth.
    Second, we must respond to our changing climate and develop 
next-generation technologies to understand it, address it, and 
manage its effects.
    Back in January, I introduced H.R. 5685, the Securing 
American Leadership in Science and Technology Act, which 
creates a long-term strategy for investment in basic research 
and infrastructure to protect these economic, environmental, 
and national security interests of the United States. A key 
provision of this bill is to improve the effectiveness of 
Federal R&D investments through comprehensive technology 
transfer reform which promotes better collaboration between the 
federal government and private industry using a whole of 
government approach.We need this focus not just at the 
Department of Energy, but also through the National Science 
Foundation, the Environmental Protection Agency, the National 
Institute of Standards and Technology, and the National Oceanic 
and Atmospheric Administration.
    We know that our technology transfer capabilities are 
highly diverse and extend well beyond the reach of any one 
agency. When we consider technology transfer policies, we must 
ensure that all our Federal research agencies have the tools 
they require to efficiently and effectively transfer R&D 
outcomes to the private sector where they can be utilized by 
American industry.
    Today's hearing gives us the chance to consider legislation 
to authorize tech transfer activities at the Department of 
Energy. I believe that limiting our technology transfer 
discussion to the scope of a single agency's activities, we may 
be missing out on big picture issues, collaborative mechanisms, 
and innovative new ways to facilitate technology transfer.
    That said, I support many of the concepts outlined within 
these bills--common sense provisions like the regional clean 
energy innovation partnerships, the small business voucher 
program, and the establishment of signature authority for 
national laboratory directors--an issue we have long championed 
on the Science Committee. I believe there are important 
governmentwide lessons to be learned from the technology 
transfer activities of the DOE national laboratories and I am 
pleased that we have Pacific Northwest National Laboratory's 
Dr. Lee Cheatham with us today. Not only does Dr. Cheatham 
serve as Director of Technology Deployment and Outreach at 
PNNL, and Chair of the National Laboratory Technology Transfer 
Working Group, he also brings insight into broader Federal 
activities through his service on the National Science 
Foundation's Business and Operations Advisory Committee.
    I want to thank Chairwoman Fletcher for holding this 
hearing and all of our witnesses for their testimony today. I 
commend my friends across the aisle for prioritizing this issue 
and look forward to a productive and valuable discussion. I 
feel confident that by working together we can continue to 
encourage innovation across the U.S. research enterprise and 
give our Federal agencies the resources they need to deliver on 
our national investment in science and technology.

     Chairwoman Fletcher.  Thank you so much, Mr. Lucas.
     If there are other Members of the Committee who wish to 
submit additional opening statements, your statements will be 
added to the record at this point.
    [The prepared statement of Chairwoman Johnson follows:]

    Thank you, Chairwoman Fletcher, for holding this hearing 
today, and I would also like to thank our witnesses for 
participating.
    The Department of Energy's technology transfer activities 
are critical to getting the fruits of our public investments in 
clean energy research, development, and demonstration into the 
hands of the American people. Technology transfer takes on many 
forms, ranging from additional funding to first-of-a-kind 
technologies, to training scientists to think more about how to 
commercialize their discoveries, to providing the private 
sector with greater access to our national laboratories' 
facilities and expertise.
    Every technology's pathway to market adoption is different, 
but the benefits of their transfer are clear. Technology 
commercialization leads to licensing revenue for federal and 
university laboratories, new products and services for the 
American people, and a more competitive U.S. economy that 
supports jobs and attracts talent.
    We are in the midst of a global COVID-19 pandemic that 
shows little signs of abating. We have had historic job losses 
and our economy has suffered significant dislocations. 
Recovering from this pandemic is going to take time, resources, 
and leadership. Job creation is going to be a priority, and 
DOE's technology transfer programs can play an important role 
in promoting our economic recovery.
    In addition to the contribution technology transfer makes 
to our economic growth, it can also play an important role in 
our transition to a clean energy future. For example, DOE's 
Technology Commercialization Fund provides funding to national 
labs-often in partnership with private sector partners-to 
commercialize promising lab technologies. These funds and 
public-private partnerships bring new clean energy technologies 
one step closer to making a real difference in mitigating the 
most significant potential impacts of the climate crisis.
    But despite DOE's ongoing work, we can and must do more. 
Providing additional funding to research and demonstrate those 
technologies is critical, but we'll also need effective 
technology transfer processes to push resulting inventions into 
the marketplace as quickly as possible.
    With all that in mind, I look forward to hearing from our 
esteemed panel of witnesses and welcome them to this hearing. 
Thank you, and I yield back the balance of my time.

    [The prepared statement of Mr. Weber follows:]

    Thank you, Chairwoman Fletcher, and thank you to our 
witnesses for being here today. This Committee is no stranger 
to the work being done at the Department of Energy's National 
Laboratories. Whether it's synthesizing new materials or 
pioneering advanced nuclear reactors, the National Labs have an 
established history of being at the forefront of scientific 
discovery. But that is just the first step.
    The commercialization of technologies, including those that 
begin at the National Labs, face unique obstacles before 
widespread utilization or deployment. Those obstacles include 
lengthy development times, high upfront costs, and lack of 
desire to replace current technology. It is what we so often 
hear referred to as the ``Valley of Death.''
    That is why DOE established their Office of Technology 
Transitions (OTT) in 2015. OTT's goal is to foster partnerships 
that guide innovations from the lab into the marketplace by 
streamlining access to information and to the National Lab's 
user facilities. One example of this is their development of 
the Lab Partnering Service (LPS), which connects investors to 
experts, competitive technology, world-class facilities, and 
partnering opportunities.
    Today's hearing is a legislative one, as we review several 
DOE tech transfer bills. The first, a draft version of the 
Energizing Technology Transfer Act, authorizes a broad range of 
DOE's tech transfer activities including many helpful 
provisions for the DOE national laboratories. I agree that 
there exists an opportunity to improve technology transfer 
between DOE and private industry by enhancing coordination and 
cutting red tape.
    We can require DOE to maximize return on R&D investment by 
better managing research efforts across the Department to save 
money, reduce waste, and prevent duplication. But I hope we 
don't waste this opportunity today, and on this legislation, by 
focusing most of our attention on the narrow field of clean 
energy technology. Don't get me wrong, I understand that clean 
energy technologies face unique challenges when it comes to the 
entering themarketplace, but on an issue as important as this 
and on a portfolio as broad as DOE's, we cannot afford to have 
tunnel vision on a singular issue.
    Federal tech transfer authorities like OTT can accelerate 
the adoption of advanced technologies over a wide range of 
areas. For example, recently, we've seen OTT go live with a 
COVID-19 portal can quickly connect experienced researchers 
with information about facilities that may be useful in their 
efforts to contribute to the fight against the pandemic.
    As we evaluate how to respond to today's current public 
health crisis, it is clear that clean energy technologies, 
while important, are just one part of the bigger picture. There 
are so many more opportunities for innovation in this time of 
economic recovery. We cannot afford to limit ourselves to one 
option and be caught flat footed when the next challenge 
presents itself down the road.
    I look forward to hearing from Dr. Lee Cheatham, the 
Director of Technology Deployment and Outreach at Pacific 
Northwest National Laboratory on this topic of broad DOE tech 
transfer applications. Dr. Cheatham will provide a unique 
perspective as he has hands-on experience with DOE tech 
transfer related to digital recording, a more resilient power 
grid, threat awareness and detection, and cancer treatment.
    We'll also use today's hearing to review the IMPACT for 
Energy Act, which establishes a DOE affiliated non-profit 
foundation that would perform outreach to the private sector. 
While I believe this could be a useful tool for the National 
Labs to share ideas and engage with the public and increase 
training of new researchers, I am concerned that this bill does 
not include specified funds to be authorized. I hope today we 
can hear suggestions on just how much this effort will cost and 
what specific authorization levels are needed for its success.
    Again, I want to thank our witnesses for taking the time to 
be with us today. I look forward to a productive discussion 
with recommendations on how to improve the legislation before 
us.
    This is the proper legislative process and I want to 
applaud the Chairwoman for attempting to make this as open and 
bipartisan as possible. Thank you Chairwoman and I yield back 
the balance of my time.

     Chairwoman Fletcher.  And at this time I will go ahead and 
introduce our witnesses. First, we have Ms. Jetta Wong. She's 
President of JLW Advising and Senior Fellow in the Clean Energy 
Innovation Program at the Information Technology and Innovation 
Foundation. She's also former Director of the Department of 
Energy's Office of Technology Transitions (OTT). Before her 
time at DOE, Ms. Wong served as a staff member for the House 
Science Committee and held positions with the Union for 
Concerned Scientists and the Environment and Energy Study 
Institute. Welcome back to the Committee, Ms. Wong.
     Ms. Jennifer States is the Director for Blue Economy at 
DNV GL and the Project Director at Washington Maritime Blue. 
Her experience includes work at the Port of Los--of Port 
Angeles, Pacific Northwest National Laboratory, managing a wind 
energy development company, as well as serving as City 
Counselor for the city of Sequim, Washington.
     Ms. Farah Benahmed is a Climate and Energy Policy Advisor 
at Third Way. Prior to joining Third Way, she worked in the 
Department of Energy's Office of Nuclear Energy and at Avar 
Consulting.
     Dr. Emily Reichert is Chief Executive Officer (CEO) at 
Greentown Labs. Dr. Reichert studied--started her career at 
Arthur D. Little as a Ph.D. scientist and researcher and then 
transitioned to become the Director of Business Operations at 
the Warner Babcock Institute for Green Chemistry before going 
on to found Greentown Labs.
     Last but certainly not least, Dr. Lee Cheatham is the 
Director of Technology Deployment and Outreach at Pacific 
Northwest National Laboratory. Before joining PNNL, Dr. 
Cheatham led Brookhaven National Lab's Office of Strategic 
Partnerships and was Chief Operating Officer and General 
Manager of Commercialization at the Biodesign Institute at 
Arizona State University.
     I'd like to thank all of you for joining us today. As our 
witnesses should know, you will each have five minutes for your 
spoken testimony. Your written testimony will be included in 
the record for the hearing. When you have all completed your 
spoken testimony, we will begin with questions from the 
Members. Each Member will have five minutes to question the 
panel.
     We will start with Ms. Wong and go in the order of 
introductions, so, Ms. Wong, please, you may begin.

                  TESTIMONY OF MS. JETTA WONG,

          PRESIDENT, JLW ADVISING, AND FORMER DIRECTOR,

                OFFICE OF TECHNOLOGY TRANSITIONS,

                   U.S. DEPARTMENT OF ENERGY

     Ms. Wong.  All right. So, first of all, thank you, Ranking 
Member Lucas of the Full Committee, and then of course 
Chairwoman Fletcher and Ranking Member Weber and all the 
Members of the Subcommittee. I appreciate the opportunity to 
appear here before the Committee today to testify on technology 
transfer and commercialization at the U.S. Department of Energy 
and to discuss how these activities will contribute to the 
economic recovery.
     Over the coming decades, the world economy must make the 
transition to low-carbon and no-carbon energy. This transition 
will require accelerated innovation. The United States' strong 
support for energy research and development should position it 
well to lead the global energy transition, but the United 
States has difficulty moving new technologies from early 
discovery to scale. No one entity in the U.S. energy innovation 
system is responsible for bringing new technologies across the 
fabled valley of death between proof of concept and early 
adoption into the market. This gap in the Nation's energy 
innovation system could open the way for China and other 
countries to capitalize on U.S. investment and thereby reap the 
economic benefits so badly needed in our country, especially 
right now.
     The two bills up for discussion today will help close this 
gap. My testimony will cover three important areas to 
strengthen these bills and DOE's ability to help the country 
recover from our current economic crisis. First, if Congress 
wants to increase technology transfer and commercialization at 
the Department of Energy, it needs to resource and prioritize 
it with new programs and authorities.
     Second, Congress needs to create programs which 
incorporate demand or user pull through the full innovation 
process. These programs need to include a diverse network of 
institutions both public and private, which allow for feedback 
loops from later stages of the innovation process to earlier 
ones.
     Third, and finally, Congress needs to provide DOE more 
flexibility to pilot, evaluate, and scale existing and new 
programs which enable the private sector engagement that I 
recommended in No. 2.
     With these three high-level elements in mind, I commend 
the Committee for the balanced and thoughtful programs and 
policies identified in the Energizing Technology Transfer Act 
discussion draft. It authorizes several programs that DOE has 
piloted and provides important direction and funding for those 
programs to be successful.
     However, the new language for the Technology 
Commercialization Fund appears to remove the requirement for 
private-sector engagement and should be reconsidered. 
Additionally, the draft bill does not fix one of the most 
vexing issues with the Technology Commercialization Fund, which 
most people call the ``color-of-money'' issue. DOE implements a 
complicated, slow, and restrictive process over several budget 
lines. This process inadvertently pushes these kinds of 
projects to the bottom of the priority list for DOE's 
technology offices. I recognize that this is both an 
authorizing and an appropriations issue, but I urge the 
Committee to reexamine the convoluted process and to amend the 
language to provide more flexibility through one fund with no 
restrictions to the kind of energy technologies funded.
     The reforms in the energizing bill are important, yet more 
must be done to drive R&D from early stage discovery projects 
to commercial products. The bipartisan and bicameral bill and 
the IMPACT bill cosponsored by Mr. McNerney, who I see here, 
Mr. Casten, and Mr. Tonko--I don't know if he's here today--
directs the Secretary of Energy to create a not-for-profit 
energy foundation, which is one way to drive this kind of 
activity.
     In May, I co-authored with David Hart of the Information 
Technology and Innovation Foundation a report called ``Mind the 
Gap: A Design for a New Energy Technology Commercialization 
Foundation,'' which lays out a vision for such a foundation. 
The ETCF Act would be authorized by Congress to work closely 
with DOE and would help fill the valley of death by allowing 
energy innovators access to DOE's tremendous technical 
expertise and world-class facilities. It would encourage DOE-
funded researchers to more aggressively seek commercial 
applications for their discoveries and connect them with 
partners, funding, and tools to do so. It draws on the 
precedent set by other congressionally authorized foundations, 
and, like those foundations, it would complement and supplement 
DOE's own activities.
     If the United States is to lead the world toward a cleaner 
energy future and gain the economic, security, and 
environmental benefits of that leadership, it must fill the 
gaps in its energy innovation system. Both of the bills 
discussed today will help fill that gap.
     Thank you so much for this opportunity, and I look forward 
to your questions.
     [The prepared statement of Ms. Wong follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairwoman Fletcher.  Thank you, Ms. Wong. Ms. States.

                TESTIMONY OF MS. JENNIFER STATES,

               DIRECTOR FOR BLUE ECONOMY, DNV GL,

         AND PROJECT DIRECTOR, WASHINGTON MARITIME BLUE

     Ms. States.  Thank you to Chairman Lucas, Chairwoman 
Fletcher, Ranking Member Weber, and Members of this 
Subcommittee, for giving me the opportunity to testify today.
     As the Director for Blue Economy at DNV GL, I serve as a 
conduit within our globally diverse company for crosscutting 
activities in the energy and maritime sectors in North America. 
I also serve as Project Director for Washington Maritime Blue, 
the newly formed cluster organization that is a partnership 
between public, private, community organizations, and research 
institutions working in collaboration to implement maritime 
clean energy and join innovation projects as part of Washington 
State's strategy for the blue economy. Together, we find 
solutions that create economic growth, healthy ecosystems, and 
thriving communities.
     In my 20 years of renewable energy and cleantech 
experience, I have had the opportunity to cross over into 
industry, nonprofit, government, and research environments. 
This includes work at PNNL within Department of Energy's 
technology offices and economic development at a port 
authority. This has crystallized my understanding of how 
crosscutting collaboration is key to accelerating clean energy 
innovation, but we need new funding models that can build the 
foundations to enable collaboration and increase the pace of 
innovation and commercialization faster than we are able to 
achieve within our own individual silos.
     Our world has changed in the blink of an eye. The COVID-19 
crisis has demonstrated the need for rapid response and 
collaboration across diverse entities. Critical new research 
innovations and developments are being fast-tracked to hasten 
the medical and economic response, but no one government entity 
has been able to act fast enough or on its own to address the 
rapidly evolving situations. Partnerships are critical for 
deploying the necessary support.
     We are facing a critical need and opportunity to 
accelerate the commercialization of clean energy technologies. 
We need to embrace this opportunity both for economic and 
environmental reasons to reduce emissions, as well as create 
well-paying clean-energy jobs to propel the United States from 
our current economic crisis.
     From global to local regulations, DNV GL's clients are 
dealing with an unprecedented need to innovate and meet 
requirements to stay competitive. For example, the 
International Maritime Organization has set ambitious CO<INF>2</INF> 
emission reductions that the shipping industry is currently not 
on target to meet. We must accelerate the availability of clean 
energy infrastructure at our ports and promote vessel uptake of 
new technologies such as batteries and alternative fuels.
     In Norway, I've seen the industry and government alike 
calling for stricter regulations because they know their deep 
investments in new technologies are giving them a competitive 
edge in global markets. If the United States is to compete, we 
need to leverage our collective assets more effectively and 
target investments into meeting our crosscutting clean energy 
challenges.
     The bills before you today offer several potential 
solutions, but I want to highlight the creation of the 
Department of Energy foundation as proposed in the IMPACT for 
Energy Act and the regional clean innovation partnerships, as 
proposed in the Energizing Technology Transfer Act. The 
regional partnerships create key public support for activities, 
which is critical for enabling public--excuse me, private 
participation and leveraging of private resources.
     The IMPACT for Energy foundation's purpose aligns with 
that of Washington Maritime Blue, by fostering collaborations 
and partnerships with different entities, leveraging 
technologies for new product development, and supporting 
regional economic development. Maritime Blue has demonstrated 
this model can work, but a state-based effort can only do so 
much. We need to tap into a broader pool of expertise, 
facilities, and funding to be able to implement and advance 
these innovations. The formation of the foundation is essential 
for creating this enabling environment for crosscutting 
collaboration.
     We have an example within Maritime Blue that is a 
crosscutting collaboration for a 1-megawatt mobile shore power 
hydrogen system for Tacoma Power that would demonstrate the 
potential of formic acid as a liquid hydrogen carrier, but we 
have--and, fortunately, the Department of Energy had a funding 
opportunity for hydrogen at ports, but we have run into many 
difficulties in trying to implement this project that is so 
crosscutting, bringing all the entities together, and dealing 
with several of the bureaucratic barriers faced by private 
companies, especially small private companies that are just 
starting to scale, including OCO, Inc., our partner on this 
project.
     A new model is needed to bring industry to the table in a 
way that allows us to work together to accelerate the necessary 
innovations and create new green jobs. The proposed bills 
provide opportunities to achieve collaboration and the timing 
and need to come together and solve our economic and 
environmental challenges could not be more critical. Thank you.
     [The prepared statement of Ms. States follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairwoman Fletcher.  Thank you, Ms. States. Ms. Benahmed, 
you're next.

                TESTIMONY OF MS. FARAH BENAHMED,

          CLIMATE AND ENERGY POLICY ADVISOR, THIRD WAY

     Ms. Benahmed.  Ranking Member Lucas, Chairwoman Fletcher, 
Ranking Member Weber, and Members of the Committee, thank you 
for the opportunity to testify today. I'm honored to speak 
before you at a time when our Nation faces enormous challenges 
and needs equally great solutions.
     I would like to thank the Committee and others in Congress 
who have supported major policies like the CARES Act and the 
HEROES Act in flattening the curve of COVID-19 cases, saving 
American lives and protecting America's workers and businesses 
from the economic downturn this pandemic has caused.
     While we work to resolve the public health and economic 
crises, the growing threat of climate change has not gone away. 
How we choose to rebuild will determine not only the speed and 
scale of our economic recovery but also our ability to reach 
net zero emissions by midcentury. With the enormous economic 
opportunity in the clean energy transition, other countries are 
racing to establish themselves as market leaders for our 
emerging clean energy technologies. As a long-standing world 
leader in innovation, the United States has the institutions, 
resources, and capabilities to reap a major share of the 
benefits as an inventor and exporter of clean energy 
technologies. Simultaneously, these investments will create 
jobs, buildup small businesses, and make the U.S. economy more 
resilient.
     There are number of ways the Federal Government could 
advance clean energy innovation. My testimony will focus on the 
following policy goals: emergency relief for clean energy 
startups, increasing investment in clean energy innovation, 
committing to clean energy demonstrations, and establishing and 
scaling technology transfer programs.
     First and foremost, COVID-19 has created immense market 
uncertainty as the pandemic runs rampant across the United 
States. The pandemic could take many small businesses down, 
including clean energy startups, without concerted Federal 
action. As part of its broader emergency measures to stabilize 
the economy and prevent further job loss, Congress must ensure 
that an entire generation of early stage innovative companies 
does not die on the vine. Congress should consider temporarily 
waiving cost-share requirements, eliminating government payment 
delays, optimizing the payment protection program, providing 
no-cost extensions in emergency cash grants, and expanding the 
small business innovation research program (SBIR).
     Second, the United States has been falling short in terms 
of public energy research and development spending relative to 
national GDP (Gross Domestic Product) at a time when other 
countries are competing to capture their share of what is a $40 
trillion opportunity. Effectively tackling the economic and 
climate crises must include at least a doubling of Federal 
investment in clean energy innovation over the next decade. 
Funding for the Department of Energy must be increased to match 
the scale of the climate crisis, and the structure should be 
updated to maximize efficient utilization of these resources.
     Third, we need to give the innovations we're investing in 
a greater chance of commercial success. Today, clean energy 
researchers and entrepreneurs face an innovation gap struggling 
to secure either private-sector investment or Federal funding 
for their technology projects, especially in later stages. This 
valley of death where a lack of Federal funding kills off--or a 
lack of funding kills off many promising technologies before 
they can reach their full potential can leave economically 
viable solutions behind. Accelerating clean energy innovation 
must include the Federal Government's commitment to clean 
energy demonstrations. Congress should start by investing in 
the demonstrations that could quickly receive funding and start 
making an economic impact in the near future.
     Last, DOE and other Federal agencies have a wide range of 
programs with a proven track record of supporting talented 
entrepreneurs to create high-quality jobs. As Congress crafts 
economic stimulus measures, it must ensure that technology 
transfer programs have the necessary authorizations and 
appropriations to rebuild a larger, more dynamic startup 
ecosystem across the United States.
     The Energy Technology Transfer Act enhances and expands 
many DOE technology transfer programs, conveying the serious 
leadership and thoroughness of this Committee to address 
climate change. I also commend the bill for prioritizing the 
Office of Technology Transitions and its mission around climate 
change. Congress should take additional actions to strengthen 
OTT, most notably by giving the Office its own budget line to 
enable greater certainty and direction in regards to Federal 
spending.
     Furthermore, scaling the technologies we need to fight 
climate change will require large-scale efforts beyond the 
programs at DOE. The bipartisan, bicameral IMPACT for Energy 
Acts aims to establish a nonprofit foundation aligned with 
DOE's mission with the kind of creative thinking needed to meet 
the scale of the crisis. Like other successfully Federal--
federally authorized foundations, a DOE foundation would 
increase private investment, public-private collaboration, and 
access to DOE's resources and facilities.
     The challenges of the crisis before us are a massive 
undertaking. Carrying out energy innovation policies can 
support struggling businesses and workers now and drive long-
term economic growth while also putting the United States on a 
faster, fairer path to net zero emissions by 2050 at the 
latest.
     Thank you again for the opportunity to testify today and 
for the Committee's efforts on key legislation like the ones 
we're discussing today. I look forward to the continued work in 
progress on this issue.
     [The prepared statement of Ms. Benahmed follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairwoman Fletcher.  Thank you, Ms. Benahmed. Dr. 
Reichert, you're next.

                TESTIMONY OF DR. EMILY REICHERT,

            CHIEF EXECUTIVE OFFICER, GREENTOWN LABS

     Dr. Reichert.  Thank you, Chairwoman Fletcher, Ranking 
Member Lucas, and Members of the Committee for giving me the 
opportunity to testify on the role the Department of Energy's 
technology transfer activities can play in our economic 
recovery from the COVID-19 pandemic.
     My name is Emily Reichert, and I'm the CEO of Greentown 
Labs, the largest climate tech incubator in North America 
located just outside of Boston in Somerville, Massachusetts. 
Founded in 2011, our mission is to provide startups with the 
community, resources, and connections their companies need to 
thrive. What began as four startups really just looking to 
share the cost of rent has grown into a community of more than 
100 early stage companies tackling challenges within the 
largest greenhouse gas emitting sectors: electricity, 
buildings, transportation, agriculture, and manufacturing. 
Since our founding, we've supported more than 280 startups that 
have created more than 6,500 jobs, raised more than $850 
million in capital, and generated at least $1.5 billion in 
regional economic impact.
     Since its inception, Greentown's business model has relied 
mostly on private-sector funding. The membership fees paid by 
our startups and direct support from more than 50 corporate 
partners. These partners help us meet our operating expenses, 
keep cost for startups low, and include world-leading energy 
companies such as Shell, Chevron, BHP, NG, EDF, Veolia, and 
NRG.
     With the support of many of these partners, last month, we 
announced our plans for our first-ever out-of-state expansion 
to Houston, Texas. Opening in spring 2021, Greentown Houston 
will be the first climate-tech-focused incubator in the city. 
Our aim is to build a bridge between Boston and Houston and 
have the best and brightest engineering and business minds 
working together to address climate change.
     In fact, Massachusetts can provide an important case study 
for clean energy as a driver for economic recovery and growth. 
Since the end of the recession, the clean energy industry here 
has grown by 86 percent with 111,800 clean energy workers in 
the State as of 2019. Already strong in Texas, the clean energy 
sector there has massive potential to drive recovery from 
COVID-19, and the strong engineering talent base there can be 
redeployed to address climate change through cleantech 
innovation.
     With this in mind, Greentown is thrilled to provide its 
support for the proposed Energizing Technology Transfer Act and 
the IMPACT for Energy Act. The provisions of these acts will be 
crucial for the recovery and growth driven by the cleantech 
industry.
     COVID-19 has posed unprecedented challenges for both 
cleantech startups and cleantech incubators. For cleantech 
startups, investments and hiring of new employees has been 
delayed as startups think to conserve cash for longer runways 
before new funding can be secured. COVID-19 has also made it 
more challenging for them to achieve technical and business 
milestones due to loss of lab access, stalled pilot projects, 
and disrupted supply chains.
     From the incubator perspective, Greentown's operations had 
to cease for nearly 3 months, resulting in a significant loss 
of revenue detrimental to our financial health and our long-
term ability to provide critical services to entrepreneurs. We 
and our cleantech startups face a challenging path forward 
without additional support. Thus, we strongly support the 
creation of the National Clean Energy Incubator program, as 
described in the proposed Energizing Technology Transfer Act 
legislation before this Committee. We are pleased to see 
language specifically providing support for operational costs, 
which fills a much-needed gap even in normal times.
     Furthermore, we applaud the expansion of the support for 
the I-Corps program and the Clean Energy Technology University 
Prize competition. These competitions help curate the best 
talent and innovations from universities and transfer them 
successfully into the marketplace. In the wake of COVID-19, 
many enterprising students across the Nation will likely choose 
to build new companies that seek to address major energy and 
environmental challenges. University prize competitions will 
provide educational experience, mentoring, visibility, and a 
path to funding for these budding entrepreneurs.
     Finally, we strongly support the IMPACT for Energy Act, 
which would address critical gaps in the commercialization path 
of innovative clean technologies. The importance of engaging 
the private sector and the investment community in addressing 
climate change through innovation cannot be understated. In 
particular, the establishment of an impact investment fund will 
help fill critical gaps in the path to market for early stage 
clean technologies.
     Finally, we are excited to see the vision for a specific 
purpose-built entity to engage the private sector in climate-
focused innovation become a reality through the creation of a 
DOE foundation. Based on the experiences of Greentown Labs, it 
is clear that this legislation could play a crucial role in 
catalyzing cleantech innovation and driving the COVID-19 
recovery in Massachusetts, Texas, and across the Nation.
     As this Committee continues to review the potential 
contributions of DOE technology transfer activities to economic 
recovery from the pandemic and to the energy transition, I hope 
you keep our experience in mind. Thank you again for inviting 
me here today and for the opportunity to speak on such an 
important issue.
     [The prepared statement of Dr. Reichert follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
     Chairwoman Fletcher.  Thank you, Dr. Reichert. Dr. 
Cheatham.

                 TESTIMONY OF DR. LEE CHEATHAM,

        DIRECTOR OF TECHNOLOGY DEPLOYMENT AND OUTREACH,

             PACIFIC NORTHWEST NATIONAL LABORATORY

     Dr. Cheatham.  Good afternoon, and thank you, Chairwoman 
Fletcher, Ranking Member Weber, and Full Committee Ranking 
Member Lucas, as well as the Members of the Committee. Thank 
you for the opportunity to appear before you today and discuss 
the role of the Department of Energy's national laboratories in 
making forward progress on an economic recovery and long-term 
clean energy future.
     My name is Lee Cheatham. I lead the Pacific Northwest 
National Laboratory's Technology Transfer Office, and I serve 
as Chair of the National Laboratory Working Group on Tech 
Transfer. My testimony today is on behalf of my work at PNNL 
and my role serving as Chair of the NLTT. It does not represent 
the views of the Department of Energy.
     Today, I want to offer three proposed perspectives on how 
the national laboratories contribute to that prosperous clean 
energy future. First, direct interaction between national 
laboratories and private sector companies enhances the 
transition of research to market. The national laboratories 
have unique capabilities that can help companies remain 
innovative and competitive. We make those capabilities 
available to companies in the form of research partnerships, 
access to scientific facilities, and licensing of intellectual 
property. These increasingly sophisticated partnerships are 
enabled by unique facilities built for collaboration in 
research, testing, and product development. For example, PNNL's 
planned Grid Storage Launchpad will bring together researchers 
from national labs, universities, and industry to validate 
innovative storage materials and realistic grid-operating 
conditions, thus advancing the next generation of technology 
for grid storage.
     Second, research across all national laboratory mission 
areas generates opportunities for technology transfer. The 
national labs' research in areas for lightweight materials, 
recycled carbon to computing to next-generation electric grid 
represent just a few of those opportunities. In every case, 
successful technology transfer relies in part upon the national 
laboratories' partnerships with companies, universities, and 
consortia. Again, for example, the Joint Center for Energy 
Storage Research and the Battery500 Consortium are creating 
transformative materials and batteries with significantly 
higher power densities than the electric grid storage and for 
new electric vehicles.
     Basic and fundamental research is a key part of the 
laboratory system's portfolio, and it's an important driver of 
our technology transfer activities. I have personally found 
that some of the most creative and interesting commercial 
applications of technology have come from early stage research. 
For example, measuring the ion collisions at Brookhaven 
National Laboratory's Relativistic Heavy Ion Collider requires 
special high-performance detectors and data collection systems. 
The software managing these data also turns out to be useful 
for managing internet traffic congestion. A local startup 
company has now been formed to commercialize this technology in 
partnership with Brookhaven.
     Seemingly far away from fundamental science, let's not 
forget that small businesses regularly require support in 
addressing technical and market challenges. When they seek a 
technical expert, search for a lab-generated piece of 
intellectual property, or request engineering skills to 
overcome a challenge in their product line, the programs 
included in this legislation that we're discussing today, the 
Lab Partnering Service, Technology Commercialization Fund, 
Technology Assistance Program, and Small Business Vouchers will 
prove valuable.
     Third, national laboratory researchers direct experience 
with industry enhances their research and accelerates 
technology transfer. These direct interactions with companies 
help our scientists understand business challenges. 
Entrepreneur training at the laboratories accelerates this 
learning and gives them the necessary skills to identify the 
commercial potential of their research. The Energy I-Corps 
program mentioned in the legislation is an important resource 
for educating researchers, and many of the national 
laboratories offer entrepreneurial LEAP (Lean Entrepreneurship 
Advancement Program) programs. Together, these two accelerate 
tech transfer and are key incentives to recruiting scientists 
and engineers into Federal service.
     Before concluding, let me acknowledge that the situation 
that we face with the COVID-19 pandemic and economic downturn 
requires our highest level of attention. National labs have 
developed technologies that are being deployed in the fight 
against the virus. For example, Paerosol is a micro-aerosol 
disinfecting technology developed by PNNL and licensed to 
NanoPure, a South Carolina company. Now, the Florida State 
Firefighters Association is currently using Paerosol to 
disinfect key facilities, including hospitals, schools, and 
first response vehicles.
     Also recently, the national laboratories have further 
opened access to our portfolio of research and technology to 
any interested companies. At many laboratories now, a company 
can access and evaluate a technology based simply on a two-page 
agreement and at no cost.
     So, in conclusion, let me say the national labs share the 
goals of this Committee, this hearing today, to improve the 
technology transfer at our national laboratories to leverage 
Federal investment in research for the benefit of our Nation's 
economy, health, and security. On behalf of the NLTT, I want to 
thank you for the opportunity to testify, and I look forward to 
answering any questions you have.
     [The prepared statement of Dr. Cheatham follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairwoman Fletcher.  Thank you, Dr. Cheatham. Thanks to 
all of you for your opening statements and for your written 
testimony.
     And we will now move on to our first round of questions. I 
will begin by recognizing myself for five minutes.
     And of course I have many questions but will direct the 
first to Dr. Reichert. In your testimony, your written 
testimony, you noted that the participation of underrepresented 
groups, including minorities and women, have long--have been 
long-standing issues in the cleantech industry and that 
incubators have often lacked the necessary resources to engage 
in meaningful outreach and develop programming to support these 
groups. I was pleased to read in your testimony that you were 
seeking out opportunities to partner with organizations that 
support traditionally underrepresented entrepreneurs in the 
Houston area as you formalize your plans to expand there. How 
can the provisions of the Energizing Technology Transfer Act be 
strengthened to support racial diversity among clean energy 
entrepreneurs? And maybe if you want to answer that, if anyone 
else wants to weigh in after that, I would appreciate that.
     Dr. Reichert, can you hear me?
     Dr. Reichert.  Yes.
     Chairwoman Fletcher.  Terrific. Do you have thoughts 
specifically on the Energizing Technology Transfer Act and how 
it can strengthen to support racial diversity among clean 
energy entrepreneurs?
     Dr. Reichert.  Yes. As I mentioned in my testimony, the 
National Clean Energy Incubator program described in the 
proposed legislation will be crucial for filling a much-needed 
gap in cleantech incubator operations support. In normal times, 
one of the biggest challenges faced by incubators is funding 
operational costs. And incubators spend a lot of time in 
survival mode. It's not easy to fundraise to support startups 
in a challenging area and a challenging funding environment for 
them. It's hard to imagine adding another set of programming on 
top of this one. And incubators have often lacked the necessary 
resources to engage in meaningful outreach and development 
programming to support DEI (diversity, equity, and inclusion) 
efforts.
     But what I think the government could offer to support 
programs in this area that I think would more fully integrate 
diversity, equity, and inclusion into the operations of an 
incubator are as follows: The government could provide 
technical support and assistance to help incubators be more 
knowledgeable about available training and other resources to 
foster inclusivity.
     As well, the government could support workforce 
development programs such as internships, co-ops, or 
fellowships that specifically target underrepresented groups 
for cleantech startups and for cleantech incubators.
     The government could incentivize groups already working 
successfully in this area to partner with incubators that need 
to get better at this. There's no reason to reinvent the wheel 
and to take funding away from groups already doing good work. 
Such programming would help enable an equitable clean energy 
recovery, ensuring that all of the human capital and talent in 
the United States that we have to offer is applied to the 
challenge of climate change.
     Chairwoman Fletcher.  Terrific. Thank you so much. Would 
any of the other panelists like to weigh in on that question?
     Ms. States.  I would if I could. Thank you. And for 
Washington Maritime Blue, diversity, equity, and inclusion has 
been a key focus area, including a part of our strategy where 
we work with the University of Washington students to do a lot 
of outreach and engagement and really understand how we can 
improve in this for the maritime and cleantech sector. So we 
have a youth maritime collaborative where we do have internship 
programs, and we also provide equity training for those 
industry partners that are doing the internships. But the key 
is it's really hard to find the resources to do this. So while 
we can put the programming together and find the partners, it's 
the need for the funding to enable these things to happen.
     We do have an incubator program and try to encourage as 
much diversity, equity, and inclusion in those incubators. But, 
as Emily mentioned, the key is funding and enabling those 
programs, which I think this legislation really sets up the 
foundation to do that. Thank you.
     Chairwoman Fletcher.  Thank you, Ms. States. I do have one 
other question for Ms. Wong, and I'm limited on time, so I'll 
try to ask it very quickly. But, Ms. Wong, in your recent 
report that you mentioned in your testimony earlier on ``Mind 
the Gap,'' you mentioned that existing nonprofit foundations 
that work with the CDC, NIH (National Institutes of Health), 
Department of Agriculture (USDA) have mobilized to support 
public-private partnerships to respond to COVID-19. And I'm 
wondering how an energy foundation might help respond and 
recover to events and--recover from events like the ongoing 
pandemic or other national emergencies through enabling 
partnerships at the DOE. So I have about 30 seconds left if you 
would share your thoughts with us on that.
     Ms. Wong.  Sure. And I thank you so much for the question. 
In fact, some of you may know that there is a Center for 
Disease Control foundation. They have been very active since 
the beginning of the pandemic and have raised over $110 
million. And if it pleases the Committee I did send earlier an 
article that's all about public-private partnerships that the 
CDC has been able to create through its foundation. That's 
exactly how the Department of Energy could do more work with 
the private sector is through public-private--or public-private 
partnerships. And since it's the end of your time, I'll stop 
there.
     Chairwoman Fletcher.  Thank you so much. Thanks to all of 
you for your insight. I will now yield back my time and 
recognize Mr. Lucas for five minutes.
     Mr. Lucas.  Thank you, Madam Chair. And I want to first 
turn my question to Dr. Cheatham, and when he has completed his 
thought, open it up to the panel in general. As I mentioned in 
my opening statement, I believe that collaboration and 
coordination between Federal research agencies on pivotal 
issues like technology transfer is essential to the overall 
success of the U.S. enterprise. However, I understand that each 
Federal agency and each area of research may have different 
tech transfer needs and specific challenges. In your opinion, 
how can we in Congress best work to support a long-term, 
comprehensive science and technology transfer strategy, Doc?
     Dr. Cheatham.  Thank you. Thank you very much for the 
question. And I appreciate the intention of it to look at 
broader solutions than we might see in just one agency.
     One of the things that I have learned being both in the 
Department of Energy's system and in my small participation 
with the National Science Foundation is that there are a number 
of commonalities between them. And I'll just reference one as 
an example. Both the Department of Energy and the National 
Science Foundation certainly have responsibilities for large 
scientific facilities. These are facilities in the Department 
of Energy, and NSF does the same sort of thing. There are 
many--that's just one area where there are many commonalities 
between the kinds of activities that the Department of Energy's 
national laboratories take and universities on behalf of the 
National Science Foundation take. So I think finding ways to 
share those experiences back and forth could certainly be very 
helpful.
     At the same time, I recognize that there are differences 
between the national laboratory system and DOE and the other 
agencies. And I'll specifically reference the universities and 
the National Science Foundation, one of their primary 
supportive organizations certainly. We have grown up under 
different conditions in those, the labs and the universities. 
With respect to tech transfer, we actually operate under 
different authority and policy for the commercialization of 
technology.
     And so one of the challenges I'll just, again, point out 
one perhaps small thing, although for many of what we're seeing 
it's a big deal. We're facing a very significant shift toward 
digital technologies as being important for many companies. At 
our laboratory, we were in the past very much looking at 
patenting new phenomenon, patenting new devices. We have now 
seen over the last 15 years quite a shift toward digital 
technologies. That means software and data.
     The ways in which we handle software, for example, in the 
copyright process is fundamentally different than it is held in 
the university system. And so those are the kinds of changes 
that would be looked into, could we understand whether it makes 
sense to move those, but I just now, in reporting this, we see 
that many more of our companies are saying we want the 
combination of a patented technology that I can build into a 
device and the operating software to go with it, so making sure 
that those two things can come together for that company 
without having to deal with multiple different processes could 
be very helpful. I hope that's helpful.
     Mr. Lucas.  That makes sense, Doctor. Anyone else on the 
panel care to touch on that? Absolutely.
     Ms. Wong.  Yes. Thank you, Ranking Member. I think that 
one of the things that I have found to be fascinating about the 
potential for a Department of Energy foundation is that it can 
actually work not just with the Department of Energy but it 
could also work with other agencies. In my research on the 
other agency-related foundations I found that there are a 
number of things that the Foundation for Food and Agriculture 
Research is working on that DOE could also work on.
     And so I think a lot of people here know that sometimes 
agencies can be protective of their turf. Let's just say that. 
And that includes their budget. And so sometimes it's hard for 
them to want to engage together on their own. But through a 
foundation or through two foundations, you could have it be 
more of a level playing field where the foundations can 
encourage the agencies to come together around certain 
challenges or opportunities that they both could work on. So I 
think that there's an opportunity through the foundation to do 
exactly what you are talking about, doing more across the 
science and technology portfolio of all the agencies.
     Mr. Lucas.  Absolutely. Anyone else wish to touch on that?
     Ms. States.  Yes, if I could expand just a little. Jetta 
is absolutely right, and as are you when you talk about the 
need for the crosscutting partnerships and collaboration. I 
think one of the keys in developing that long-term strategy is 
for the enabling environment to make that happen. The DOE 
foundation can provide that. But getting the different types of 
players together to work on developing a strategy is critical.
     We found that in Maritime Blue that's where we started was 
developing crosscutting collaboration to--on the strategy 
focusing on projects, what could we work on together to 
demonstrate win-win solutions for different entities across 
different sectors, energy, maritime, transportation. And a good 
example right now is Department of Energy has partnered with 
the Economic Development Administration on a blue economy 
cluster funding opportunity, so just one small example of where 
that has been able to happen but a foundation can really create 
that enabling environment for the strategy to do it in a much 
more organized fashion.
     Mr. Lucas.  With that, Madam Chair, my time is expired.
     Chairwoman Fletcher.  Thank you very much, Mr. Lucas. I'll 
now recognize Mr. Lipinski for five minutes.
     Mr. Lipinski.  Thank you, Chairwoman Fletcher. Before I 
begin, I'd like to ask unanimous consent to enter into the 
record a letter cosigned by 31 scientific societies, 
universities, and energy advocates in support of the creation 
of an energy foundation. If I could do that, Chairwoman?
     Chairwoman Fletcher.  Without objection.
     Mr. Lipinski.  Thank you. And thank you for holding this 
hearing today. This is an issue that I have always been 
particularly interested in on this Committee, how do we find 
innovative ways to help transition research findings into new 
products and services.
     And one of the programs that I have championed over the 
years is National Science Foundation's Innovation Corps, 
commonly known as I-Corps. This entrepreneurial training 
program gives researchers experience in customer discovery and 
fosters skills needed to transition research into the 
commercial sector.
     I know that Dr. Cheatham in his written testimony talks 
about the value of entrepreneur training. And additionally, Ms. 
Wong mentions in her written testimony a need for the DOE to 
pilot, evaluate, and scale innovative ideas and highlighted the 
Department of Energy's version of I-Corps as a success. The 
independent evaluation Ms. Wong referred to states findings 
suggest Energy I-Corps has very high potential to increase the 
commercialization of trained PI's (principal investigators') 
lab technologies.
     So I believe that this program, Energy I-Corps, is right 
for an explicit congressional authorization and expansion, and 
next week, I'm going to be introducing the Energy Innovation 
Corps Act to do just that. I look forward to continuing to work 
with this Committee on this and hope to see this bill move 
forward, along with other important energy tech transfer 
legislation.
     So I wanted to start my questions by asking Dr. Cheatham. 
You described Energy I-Corps as a centerpiece of national 
laboratory efforts to expose researchers to entrepreneurial 
training. Can you share a national lab perspective on how this 
program has been helpful to your employees' professional 
development and their success in transitioning research into 
products and services? Dr. Cheatham?
     Dr. Cheatham.  Thank you very much for the question. And 
this is an important topic. As you well know, the Energy I-
Corps version at DOE is slightly different because of the 
difference in the requirements, but fundamentally the same as 
the I-Corps version that came out of NSF. We use it at the 
laboratories to train, as you mentioned, our researchers.
     Let me just give one example that explains this a little 
bit better. Around Energy I-Corps we at Pacific Northwest 
National Lab have built a pre--what we call a pre-I-Corps 
session where we bring in a larger number of pairs of 
researchers to get them interested. It's really a recruiting 
technique to see who can go through the whole of the program.
     And so the first time we did that last year I said to them 
at the beginning it was kind of tentative. At the end of it, 
which is only about a week and a half or 2 weeks later, the 
amazing changes that had come in those researchers because they 
had made their calls to companies to find out where their 
technology could work and where it couldn't. Every one of those 
had a story to tell about how they were going to change the 
research in their labs when they got back to that after this 
because they had learned things that just didn't occur to them 
from their scientific principles, that the market voice in that 
has really helped them.
     And so, as I said in the testimony, we see an increase in 
the quality of research because of those kinds of experiences, 
so we're doing everything we can to promote them.
     Mr. Lipinski.  Thank you. Dr. Reichert, you also indicate 
in your written testimony that you would applaud the expansion 
of support for I-Corps. Can you describe the value of this 
program to your members? Dr. Reichert?
     Voice.  Dr. Reichert, you are muted.
     Dr. Reichert.  There we go. So the I-Corps program is a 
wonderful opportunity for laboratory-based potential 
entrepreneurs to get exposure to both the concept of 
entrepreneurship, as well as potential customers. And one of 
the best things about the I-Corps program that I truly support 
is the customer discovery focus. In I-Corps, there are many, 
many customer discovery calls, and this is really critical to 
potential entrepreneurs understanding that in order to develop 
a product, a technology that's coming out of a laboratory, you 
need to have a market. And that market needs to be well-
qualified. And this tends to get early stage companies and 
early stage potential entrepreneurs off to a strong start when 
they have that customer discovery resource--research at their 
backs.
     Mr. Lipinski.  Thank you. And I see I'm out of time. I'm 
going to enter some other questions asked for--enter those into 
the record and for responses from the other witnesses, but I'd 
appreciate my colleagues' support. I'd like them to take a look 
at the Energy Innovation Corps Act when I introduce that next 
week and would appreciate your support.
     With that, I thank the Chairwoman, and I yield back.
     Chairwoman Fletcher.  Thank you, Mr. Lipinski. I'll now 
recognize Dr. Baird. Dr. Baird, I see you're on a mobile 
device. You may be muted.
     Mr. Baird.  How about that?
     Chairwoman Fletcher.  Yes, we can hear you now. You are 
recognized for five minutes.
     Mr. Baird.  Thank you very much, Madam Chair. I'm not 
actually on this Committee, but I am a Ranking Member of the 
Research and Technology Subcommittee, so I would like to hear 
some more about DOE's potential to collaborate with NSF and the 
N-I-S-T or NIST in support of governmentwide technology 
transfer initiatives. Dr. Cheatham, I'll start with you. Then, 
we can move to the other witnesses. And I heard, Ms. Wong, you 
mentioned agriculture, so I'm particularly interested in that 
when we get to that point. So, Dr. Cheatham, would you mind 
discussing DOE's potential to collaborate with NSF and NIST?
     Dr. Cheatham.  Yes, I'd be happy to do that. Thank you 
very much for your question. One of the things that we realize 
is that the research community is well-connected and is not 
overly large, so there's a lot of back-and-forth between them. 
What we see as we're looking at both of those agencies--let me 
just start, first, with NIST. One of the things that has 
happened recently that is affecting technology transfer is the 
work that the Under Secretary Copan has been doing at NIST on 
looking toward updates in technology transfer policy and 
regulations. It's beginning to open some of the channels in 
that--that allows us to do things I've been talking about and 
engaging companies, engaging entrepreneurs, and that sort of 
thing. So we certainly have been in close conversation with 
NIST on that sort of activity because we believe in the long 
run it will be better for everyone.
     I mentioned a little bit about the NSF activities. Let me 
instead focus on the key partnerships that DOE labs must have 
and do have with the universities. Sometimes those are 
supported by DOE on our side, by NSF on the university side. 
Again, almost all of the key challenges that we're facing, 
whether that's batteries or whether it's the electric grid, or 
whether it's any kind of renewable energy, we really need to 
have that partnership between the universities and the 
laboratories. And I mentioned a few in my testimony around the 
batteries, those are key if we're going to get to the next 
generation of batteries that are three times more--energy 
densities three times higher than what we're seeing right now.
     So I hope that's been helpful with a few examples. I'm 
happy to follow up if there are more, so I'll let some of the 
others speak now.
     Mr. Baird.  I appreciate that answer. And I certainly 
would agree with you in terms of the need for collaboration 
between the universities, and the things that are done at the 
national labs at a basic level are very impressive to me. So I 
will give the other witnesses the opportunity to make a 
comment.
     Ms. Wong, I think you had something you might mention 
about agriculture. That's of particular interest to me.
     Ms. Wong.  Of course. Absolutely. Thank you. So I think 
that there are a number of things that the Department of Energy 
can do with other agencies, and I'd like to point out first 
that, as Lee was saying earlier, the national laboratories 
already do quite a bit of work across the board in a variety of 
different technologies. And in fact they do a lot with other 
Federal agencies, including USDA and NIH.
     When I was talking earlier, I had mentioned that there's a 
Foundation for Food and Agriculture Research, and they have put 
out a number of very interesting solicitations, some related 
to, for example, the amount of carbon that could be sequestered 
in plants and in the soil. And that's something that DOE--the 
DOE national laboratories actually has quite a bit of 
experience in, and in fact I think including PNNL, and so there 
are lots of opportunities for collaboration. So we need to give 
the laboratories and the universities a platform to work within 
to bring those kinds of partnerships together. And that's 
something that I think a foundation can do.
     But I think that that's not the only thing. I want to 
mention also that you had asked about NIST. And NIST has a 
great program--I'm sure you know about it--the Manufacturing 
Extension Partnership (MEP) program, and that has strong 
connections to the private sector. I see that as one of the 
important programs that the DOE foundation could help support 
and bring people to, bring entrepreneurs to connect the 
different dots that are required to move the technology through 
to commercialization. So that would be another area that NIST 
and DOE, through the foundation, potentially could work 
together.
     Mr. Baird.  Thank you. And I see I'm out of time, but, 
Madam Chair, if the Committee would like to hear from the other 
two witnesses, that's OK with me. It's up to you.
     Chairwoman Fletcher.  Why don't we go ahead--we have 
several more Members to be recognized, but perhaps we could ask 
those witnesses to----
     Mr. Baird.  I yield----
     Chairwoman Fletcher [continuing]. Submit their responses 
in writing.
     Mr. Baird.  I yield back. Thank you.
     Chairwoman Fletcher.  Thank you, Dr. Baird. Next, I'll 
recognize Ms. Stevens. Ms. Stevens, I believe you're muted.
     Ms. Stevens.  Can you hear me?
     Chairwoman Fletcher.  Yes, we can.
     Ms. Stevens.  You can hear me?
     Chairwoman Fletcher.  You're recognized for five minutes.
     Ms. Stevens.  Great. So, yesterday, the Department of 
Energy's Vehicle Technologies Office and Advanced Manufacturing 
Office announced Federal funding for projects across the 
country that will support new and innovative advanced vehicle 
technologies. Companies with an incredible presence in my 
district received over $21 million to lead these innovative 
projects in advanced vehicle batteries, electrification, and 
manufacturing that can be leveraged into millions of dollars 
more to follow on in private sector investment. Certainly, when 
we look at some of our moonshot innovations of the 21st 
century, I believe electric vehicles is right there.
     But, Ms. Wong, you spoke in your testimony about the 
Office of Technology Transitions' role with national labs and 
facilitating technology transfer and mentioned that laws such 
as the--authorizes--quote--``authorizes multiple collaboration 
pathways for the transfer and use of DOE-funded R&D through 
minimal tweaks to mostly existing policies and programs.'' Just 
wondering if you could speak to some of the changes that could 
be made to better increase the Office of Technology 
Transitions' engagement with other DOE research labs as we look 
to be collaborative and crosscutting here.
     Ms. Wong.  Thank you for that question. That's a fantastic 
question. You know, one of the things that we could tweak--and 
actually the Energizing Technology Transfer Act allows the 
Office of Technology Transitions to do, is it provides them a 
budget, a Technology Transitions program, and I think that's an 
important thing because, right now, the office doesn't have a 
lot of flexible funding to try to do outreach to other programs 
like the Vehicle Technology Office within the Department of 
Energy to develop potentially, you know, new opportunities to 
be more innovative in what they could do, so I think that 
that's something that's very important that is already included 
in the bill that could be very valuable to building that 
relationship with other offices.
     Ms. Stevens.  Right. And just as Dr. Baird had left off, 
we play a role with that Research and Technology Subcommittee. 
I'm the Chair of that Committee. And, as he mentioned, it has 
jurisdiction over the National Institutes of Standards and 
Technology. I appreciate your comments there, Dr. Baird, about 
how NIST could be better leveraged for some of those tech 
transfer efforts. I personally have worked with NIST on a 
multitude of manufacturing and supply chain engagement efforts 
throughout my career and you get firsthand that unique role 
that they play with the private sector.
     Last year, NIST released a report on barriers to and 
recommendations for improving American innovation and economic 
competitiveness. The recommendations included expanding Federal 
partnership mechanisms through nonprofit foundations.
     As a sponsor of the IMPACT for Energy Act, which has come 
from Congressman Lujan, which would establish a foundation 
model at DOE to facilitate partnerships with the private sector 
and tech transfer capabilities, Ms. Wong, how might an energy 
foundation help respond to and recover from events like the 
ongoing COVID-19 pandemic or other national emergencies through 
enabling partnerships with DOE?
     Ms. Wong.  Well, thank you so much for that question. I 
think that we in this country and around the world are seeing 
all sorts of different kinds of activities related to 
hurricanes and fires. I used to live in Oakland, California, 
and many people probably saw the rolling brownouts that took 
place because of the fires that were going on there. It was a 
crisis, right? Everyone was like we need new technology, we 
need to jump on this, and we need to better understand what's 
going on with our grid. And it occurred to me that there are 
technologies at a variety of different labs.
     One that I know of at PNNL is a kind of analytical program 
that helps us understand the grid, but it mostly looks at what 
happens with cybersecurity or hurricanes. It could be adapted 
for fires. And a foundation, because it's not part of the 
Federal Government, would be able to act quickly, find funding, 
and then really support the development of that technology in a 
crisis like what we're seeing here with COVID-19. So that would 
be another example where you could use a foundation.
     Ms. Stevens.  Great. And with that, I'm out of time, and 
I'll yield back, Madam Chair. Thank you.
     Chairwoman Fletcher.  Thank you, Ms. Stevens. I will now 
recognize Mr. McNerney for five minutes.
     Mr. McNerney.  Well, I thank the Chairwoman for this great 
hearing and I really applaud the witnesses. It's really good 
information.
     I noted that at least two witnesses identified that no one 
Federal agency is responsible to bring technology from the labs 
to the market. I developed wind energy technology for 20 years 
so I know personally about the valley of death.
     Ms. Wong, it's great to welcome you back to the Committee, 
and thanks for calling out my bill earlier in your testimony. 
Would you reiterate what specific changes the proposed 
legislation, that we see, would be helpful to empower a single 
agency for that purpose? In other words, I know you spoke about 
foundations, but what could we change in the current proposed 
legislation to empower a single agency to carry out the 
function?
     Ms. Wong.  Thank you for the question and it is wonderful 
to see you. So I think that the Energizing bill does quite a 
bit already to really help the Department of Energy to really 
change the culture and change the thinking around getting out 
of the valley of death, getting through the valley of death.
     I think one thing that I would--and I mentioned it in my 
opening statement--I would really encourage the Committee to 
look at is the Technology Commercialization Fund, which was 
authorized in 2005 through this Committee. The current language 
takes out--as far as I can tell, takes out the requirement for 
the laboratories to work with the private sector, so the 
original language said a match from the private sector. And it 
was important to take out the match requirement because I think 
that that was too much money to require an outside partner to 
put into an early stage technology. But by taking out that 
private-sector piece, it doesn't push the labs enough to engage 
with the private sector, to understand what those 
commercialization needs are. So that would be one tweak I would 
suggest for the current legislation.
     Mr. McNerney.  OK. Thank you. Dr. Cheatham, throughout the 
COVID-19 pandemic, Lawrence Livermore National Lab has been 
working to leverage their expertise to develop related 
equipment. Can you discuss some of the ways that the national 
labs have been utilizing technology transfer in the fight 
against COVID-19?
     Dr. Cheatham.  Thank you. Yes. I can--excuse me. I can 
mention a few of those. And my colleagues at Livermore have 
done a great job in working through those things. But let me 
start first at a little bit higher level. One of the first 
things that the Department of Energy did was stand up a 
National Virtual Biotechnology Laboratory, which in code I 
think means representatives from each of the laboratories have 
been meeting regularly, even daily to scour the whole of the 
laboratory system for which technologies might be appropriate 
for the challenges that are being faced right now. And so while 
I don't want to go into that a lot, just to note that there are 
mechanisms like that that are being used to ensure that we dig 
into all of the corners in the laboratories to figure out what 
might be there and what might be available.
     One of the other technology areas that we have gotten a 
lot of requests from companies about is protective coatings. As 
you can guess, protective equipment is a big deal, and several 
of the laboratories have developed different versions of 
protective coatings that are--they're essentially hydrophobic, 
meaning they shed water very easily and other things. And so 
we're beginning to see companies pick those technologies up out 
of our laboratory. We have some--there--I know there are some 
at Brookhaven, and I know there are some at Livermore. I 
believe that Sandia has one of those technologies, too. So 
those are the kinds of technologies, even though they're 
slightly different, are certainly being picked up and moved 
forward. So at least that's a couple of answers. Is that--if 
that offers what you were looking for.
     Mr. McNerney.  Sure. You know, I just wanted to give out a 
shout out to the labs. You mentioned the co-benefits, Dr. 
Cheatham, of the lab's researchers, as well as businesses when 
they partner together. What are some of the challenges that the 
labs face in partnering with private companies?
     Dr. Cheatham.  Well, I have to say, as anxious as the 
researchers are and the companies are to engage with each 
other, we do have to do some education, if nothing else, in 
just language because, as you--I think people well know, the 
context of being in the private sector--I spent a number of 
years at a software company and a startup company of my own, 
and I've been in the lab for 20 years. The perspectives that 
are taken on both of those are different and so a lot of the 
times folks in my group, for example, who are commercialization 
managers are spending time helping each of the companies and 
the researchers understand what the other means. What are they 
really looking for and that sort of thing. And so just the 
simple things I'll say right up front about can we communicate, 
once that barrier is through, they can run and do what they 
need to do.
     Mr. McNerney.  I believe it. Well, thank you. I have some 
more questions for the record and I will yield back.
     Chairwoman Fletcher.  Thank you, Mr. McNerney. I'll now 
recognize Mr. Foster for five minutes.
     Mr. Foster.  Well, thank you. And I guess I'll start with 
Dr. Cheatham. First off, I greatly appreciate your expertise 
here today but given your role as the Chair of the National 
Laboratory Working Group on Tech Transfer. You know, as someone 
who started a company that actually escaped the valley of death 
and is doing quite well, as well as having spent 25 years at a 
national laboratory, you know, this is a tough nut to crack.
     So from your experience serving in that role, what are the 
major challenges that national laboratories face in engaging in 
tech transfer activities? And also, you know, would the 
programs that are authorized in the bills that are under 
consideration today help address any of these challenges?
     Dr. Cheatham.  I think--well, to answer your second 
question, I think some of them certainly will. The four that I 
called out address the--I think--I tend to think of this 
process as a chain of events that we have to go from creating a 
new idea through several steps to a company that is actually 
selling something in a marketplace and making a difference. And 
there are places along each one of those that you clearly have 
experienced on your own. I used to like to say, by the way, 
that buried in the valley of death, if you look down in that 
chasm, they're the bones of companies that just couldn't get 
across, so I'm happy to hear----
     Mr. Foster.  Sure. Yes.
     Mr. Cheatham [continuing]. That you did get across. But at 
each of those stages there are different things. The programs 
like Energy I-Corps we've discussed really help our researchers 
move through, but one of the questions is how do we identify 
the number of companies that understand the laboratory system 
and the number of companies that our laboratory 
commercialization managers have personal access to is smaller 
than it should be, and so one of the things that we're looking 
at trying to do as a network of laboratories is to figure out 
what we can do to make those connections for the companies that 
might need our technologies much easier.
     One of the things that we've done I'll briefly mention in 
this is to engage, I'll say, third-party almost intermediaries. 
Some of these times they're investment funds. Sometimes they 
are accelerator activities. But these are organizations that 
are either private sector or--and sometimes they're nonprofits, 
but they have the connections that they know where the 
companies are and they know where the entrepreneurs are, and 
they know how to get into the laboratories. And we found that 
very beneficial.
     We're working with--I'll just mention one we're working 
with in Seattle right now. It was spun out of an investment 
fund there. And that's becoming very useful because they know 
which companies want--they can look at our technologies and 
help us make the match. I think that's one of the key 
challenges that each of us in the national laboratory system 
faces.
     Mr. Foster.  One of the interesting models if you look 
internationally is the government actually retains an equity 
stake in some of the startups. Israel is sort of famous for 
doing this. And, you know, I often daydream that if we had 
retained--if the Federal Government had retained a five percent 
stake in Google as we basically paid for all of the R&D that 
led to Google, and then were able to retain that in the Federal 
research and development budget, that we would be in a very 
different fiscal situation for research in this country. And so 
has there been ever serious discussion along those lines of an 
equity model in this country?
     Dr. Cheatham.  There is. In fact, we do have the ability 
to take equity. And we at Pacific Northwest Laboratory have 
done that. We've got a startup company that's in Philadelphia 
right now building medical equipment that we have a small 
equity stake in.
     The challenge that we have is making--not making that too 
big. And the reason is because, as a public entity, we cannot 
seem to be--seen to be in competition with the private sector. 
And that means if we get too much of a controlling stake in any 
company, we essentially then have a say over what they're doing 
to an extent that is outside for what's intended for a public 
entity.
     So yes, we have those tools, yes, we use them judiciously. 
There are some limitations. And I think in some cases those are 
probably reasonable. But it's an interesting conversation we go 
through each time that we try and do that.
     Mr. Foster.  All right. And you're right about the 
potential for conflict of interest in that model. And do you 
get to--does the laboratory get to keep the money if the 
company becomes a homerun, or does it go back to the Federal 
taxpayer?
     Dr. Cheatham.  Well, it goes back to the--I'll say it goes 
back to the Federal taxpayer in that we keep it and reinvest it 
in building the capabilities of the laboratory. So in some ways 
the royalties stream into all of the laboratories is intended 
to make reinvestment. We do that through the development of new 
technologies, creating new capabilities, creating new 
equipment, and all of that sort of thing. And so, yes, all of 
that is reinvested through the laboratories based on the 
outcomes from each of those licenses.
     Mr. Foster.  And so the first time you create a unicorn 
there will be an interesting discussion of the split of the 
profits from that.
     Dr. Cheatham.  There will be.
     Mr. Foster.  Yes, thank you very much and I yield back.
     Chairwoman Fletcher.  Thank you, Mr. Foster. I'll now 
recognize Mr. Casten for five minutes.
     Mr. Casten.  Thank you, Madam Chair. Thank you to all our 
speakers. I have to start by confessing that I've been sitting 
here doing internet searches on Dr. Reichert because of your 
background at A.D. Little. I'm trying to figure out if we 
overlapped. I worked at Arthur D. Little from '97 to '99, and 
then a lot of my colleagues went off to Tiax. And I suspect we 
could probably play the name game and spend a little time 
together.
     I mention that because to some degree everything that's 
old is new again. The--when I was a young consultant in the 
1990's, we did a lot of--the dot-com bubble had just popped. 
There was all this money flooding into fuel cells and batteries 
and microturbines and we would go and help these companies 
develop their business plans, sometimes they're equity 
investors, and did a lot of work for DOE as well trying to 
recommend policies on exactly this topic.
     And as you know, Dr. Reichert, the beauty of being a 
former consultant is you only remember the predictions you made 
about the future that came true and you ignore all the rest 
because that way you bat a thousand in hindsight.
     But one of the--one of the charts we regularly used to 
pull out was that the S-curve for technology adoption in the 
energy generation space at a point from proof of concept to 50 
percent market penetration is always about 15 years. It's true 
for wind, it's true for combined cycle, it's true for every new 
energy technology. And yet we get all these companies that said 
that they were going to be, you know, fully operational in six 
months to meet their equity projections.
     And the reason is just that if you have a capital-
intensive low-margin industry, the investors tend to be 
conservative. They don't want to write big checks when they 
know they can't get their money back in seven years unless 
somebody else has already operated that technology for 7 years 
continuously. It's super easy to develop--get the money to 
raise money for an app. It's really hard to get the risk around 
for energy technologies.
     And so I want to start just by asking Ms. Wong, although 
other--the rest of you may have thoughts on this. What do we 
still need to do to improve on the technology transfer program 
for capital-intensive industries in commodity spaces? Because 
it just seems to me like we still think that this is going to 
be like developing the next Google, and we lose sight of the 
fact that these are big dollars, and it takes a long time to 
get done. How can we--what can we do better in those capital-
intensive commodity industries?
     Ms. Wong.  That is a terrific question, and you've 
outlined the problem that I think all of us on the panel see 
every day. And I would echo what a lot of the other panelists 
have said, which is that we need to better connect our 
researchers to the people that are actually commercializing the 
technologies, the manufacturers, the customers that are 
deploying those technologies because, as you said, they are 
very risk-averse, and they do not trust a startup that's coming 
with them with this new widget and they say, oh yes, we can 
create this, we can manufacture it, no problem. We need to make 
sure that those entrepreneurs and those private-sector 
companies are coming together and sharing their understanding 
of what is going on in the R&D world and what is needed in the 
private-sector world to commercialize the technology.
     This is one of the reasons why we think that the DOE 
foundation idea is so important is because it provides a 
platform, a neutral platform for those different entities in 
the innovation cycle to come together. And particularly----
     Mr. Casten.  If I could just interrupt and I don't mean to 
be rude but I'm watching the time here, and let me reframe the 
question a little bit. If you've got a technology like a 
cutting-edge new fuel cell, like a cutting-edge new wind 
turbine where a commercial-scale product is a--pick a number, 
$50 million investment, the issue isn't connecting people to 
research. It's where can the private market go out and say is 
there anything at commercial scale that has been operating for 
a long enough period of time.
     And it seems to me that every time the Federal Government 
has tried to do that, we get beat up for the mistakes, witness 
Solyndra, because they are such high-profile, they're such 
high-dollar projects, and as a result, it just feels to me like 
we get skittish. So how can we better bring those projects 
forward because these assets, they cost a lot of money. They're 
big bets and if they're seen as big bets for the taxpayers, 
they're even bigger bets for the private sector 
proportionately.
     Ms. Wong.  Sure. I think that the demonstration program 
that is in the bill where they're trying to have better 
oversight and implementation of those larger projects that are 
more than $50 million could be one of the ways to do that. I 
know my colleague Farah has done some research on that so maybe 
she'd like to comment on that.
     Mr. Casten.  Well, I think I am about out of time so 
unless the Chairwoman will allow Farah to comment, I would 
welcome any of your comments in writing afterwards because I 
loved all your expertise, but we're out of the five minutes 
here, so thank you and I yield.
     Chairwoman Fletcher.  Thank you, Mr. Casten. And yes, we 
would appreciate receiving those comments for the record.
     And I will now recognize Mr. Lamb for five minutes.
     Voice.  Ms. Fletcher, Mr. Lamb had to step away for a 
moment.
     Chairwoman Fletcher.  Yes.
     Voice.  He will be back shortly.
     Chairwoman Fletcher.  I see that. Why don't we skip over 
Mr. Lamb and go to Mr. Beyer and then we'll come back to Mr. 
Lamb.
     Voice.  And it looks like Mr. Beyer has left the hearing. 
We'll see if he's coming back in.
     Chairwoman Fletcher.  OK. Well, I think Mr. Beyer was our 
last Member so why don't I do this. I'll open it up for quick--
oh, I believe Mr. Lujan has just arrived.
     Voice.  Yes, he is connecting in at the moment.
     Chairwoman Fletcher.  Yes, as soon as he's connected I'll 
recognize Mr. Lujan and then we'll go back to Mr. Lamb.
     Voice.  Mr. Lamb has returned.
     Chairwoman Fletcher.  Okay. Well then, we'll go back to 
the regular order and I recognize Mr. Lamb for five minutes.
     Mr. Lamb.  Thank you, Madam Chair. Sorry for my 
delinquence there. I want to thank all of our witnesses for 
their patience.
     I can't see you on my screen right now, but I had a 
question for Ms. States if she is still with us.
     Ms. States.  I am, yes. Thank you.
     Mr. Lamb.  Yes, thank you for your contributions. And I 
think you're--so I come at the maritime issue from a slightly 
different angle just because in my area in western Pennsylvania 
we're in an inland waterway port, one of the largest and 
busiest in the country, so our maritime issues are little bit 
different but similar in the technologies that we need to 
adopt.
     And I think your emphasis on hydrogen is really important 
not only for maritime but for a number of other industrial 
applications as well, whether it's trucking, which you also 
kind of mentioned. But I think there's going to be applications 
in steel and many other things that are relevant out here.
     So I was wondering if you could just say a little bit more 
about the challenge of really building something large, you 
know, not just researching it but building, you know, the type 
of plant that would be needed to create hydrogen and pipe it to 
where it needs to be. And I know your process you were talking 
about was a little bit different, but can you give us some more 
detail on how we can improve that not just with this bill but 
over time, how we actually get things like that built? Because 
a lot of the emphasis today has been about getting technology 
out of the lab, which is good, but I think we need to work a 
lot harder on getting these really large scale, hard-to-build 
infrastructural elements out of the lab as well. Go ahead.
     Ms. States.  Yes, thank you very much for the question. 
And actually I'll--in my answer I will touch on that and the 
question from Representative Casten as well in how you can do 
these large investment projects better. The--using this example 
of this hydrogen-at-scale project that we have proposed, it is 
really a systematic approach that involves all the different 
connected players on the waterfront in order to enable a 
project that crosses both transportation, energy, maritime, 
utility, and chemical industry to bring them all together to 
make it happen.
     The technologies are at different readiness levels, so the 
Federal Government investment is needed to de-risk those--where 
the technology readiness level is too early to really get 
private-sector investment, but there are aspects where we are 
getting private-sector support for some of the cost share 
because there are, for example, some good savings for the 
utility in the model we put together.
     So the way we're doing that is by not just using hydrogen 
in a traditional way in a fuel cell but having a systematic 
approach where clean electricity, hydropower from a local 
utility is being used to generate hydrogen when it's off-peak, 
when they have excess generation. The hydrogen is converted to 
formic acid. Formic acid is a liquid hydrogen carrier. It 
already exists in the fuel chain. It's easier to store, to 
move, has easier permitting pathways because it already exists 
in this form.
     Then PNNL has a technology--and, excuse me, OCO Inc. is 
the technology for that, a newer commercialization company. 
PNNL has the technology for re-formation of the formic acid 
into hydrogen, and then it's used on a fuel cell. When we go 
further, the fuel cell is mounted on a truck bed so that it can 
be a mobile fuel cell that goes directly to where a ship is 
berthing and can plug in that ship, instead of using its diesel 
engines, and could use the fuel cell. So it saves the utility 
the infrastructure cost of having to build a substation at 
every single berth.
     So by having this integrated systematic approach, you 
bring different players together for different win-win 
scenarios at different technology readiness levels and make 
good things happen for all the different players. But it's 
really difficult to do that in traditional funding 
opportunities, so that's the key, is having a flexible model 
like a Department of Energy foundation that can enable that and 
having those connected systems between all these different 
players through regional partnerships like Maritime Blue to 
make it happen.
     Mr. Lamb.  And it sounds like also, though, making sure 
that if there is an Energy Department foundation, that it has 
dedicated resources and funding streams not only to sort out 
some of the basic science ideas themselves but to the financing 
of these larger-scale projects.
     Ms. States.  Absolutely, yes. That public funding is 
essential for de-risking the early stages of this, getting 
through that valley of death, and bringing together the 
partners to be able to work in that systematic approach. So 
having the funding stream from the public side to be able to 
leverage the private side is key.
     Mr. Lamb.  Thank you very much. And, Madam Chair, I yield 
back.
     Chairwoman Fletcher.  Thank you, Mr. Lamb. And I will now 
recognize Mr. Lujan, who has joined us and is joining the 
Committee this afternoon for this hearing. Mr. Lujan, if you 
have questions, I would like to recognize you for five minutes.
     Mr. Lujan.  Chairwoman Fletcher, thank you so very much 
for this important hearing and for the recognition. And before 
I begin, I have a unanimous consent request. I have a letter 
from Greentown Labs and a letter from 31 organizations, 
including academic and professional society companies and 
experts that speak to the importance of H.R. 3575. And I ask 
unanimous consent that they be entered into the record.
     Chairwoman Fletcher.  Without objection, so ordered.
     Mr. Lujan.  Thank you, Madam Chair. And, again, thank you 
to everyone for being part of this important hearing today--
important hearing on legislation that would promote clean 
energy and help enable an economic recovery. While all of us 
represent constituents who are struggling to make ends meet, to 
pay rent, and provide for their families, I'm encouraged by the 
increased attention of putting people back to work by building 
a more sustainable and resilient economy.
     The COVID-19 pandemic has made clear the role that our 
scientists, engineers, entrepreneurs, and innovators play in 
addressing our Nation's most pressing challenges, and I am 
proud of New Mexico's contribution to our research mission led 
by two world-class national laboratories, Los Alamos and Sandia 
National Labs. Acting on these bills today means that more 
ideas and innovations from our best and brightest scientists 
will make it into markets, provide jobs, and improve our 
quality of life.
     The Energizing Technology Transfer Act would drive clean 
energy technology commercialization in our national 
laboratories and across the DOE, including two bills that I 
authored that are being considered. First, the Leveraging our 
National Labs to Develop Tomorrow's Technology Leaders Act, 
which strengthens the Department of Energy's Lab-Embedded 
Entrepreneurship Program, which utilizes national laboratories 
to train and develop the next generation of tech entrepreneurs 
to meet the broader challenges and the needs facing our 
communities.
     Now, the legislation also includes my bipartisan Promoting 
Small Business Innovation through Partnerships with National 
Labs Act of 2019, which allows small businesses to gain access 
to premier facilities at the labs, spurring innovation and 
stimulating the culture of private-public collaboration.
     Lastly, H.R. 3575, otherwise known as the IMPACT for 
Energy Act, would establish a DOE-affiliated nonprofit 
foundation to engage with the private sector to raise funds and 
leverage expertise that supports the research, development, 
demonstration, and commercial application.
     So I just want to thank the Chair for all of her work 
today and for everything that she has been doing.
     Now, Ms. Wong, in response to the COVID-19 pandemic, the 
National Institutes of Health activated their foundation to 
bring together experts, develop a coordinated research 
response, and speed up development of a vaccine and treatment 
options. Could a foundation at the Department of Energy help 
DOE better respond to the crisis of emerging issues?
     Ms. Wong.  Yes, sir, and thank you so much for your 
leadership on these issues. It is wonderful to see you here 
again on the Committee.
     Yes, absolutely. We had talked earlier about how important 
the Centers for Disease Control Foundation has been in 
developing a more than--or fundraising more than $110 million 
for the pandemic since the beginning of the year, and so a DOE 
foundation could do the same thing, reacting to emergencies 
that happen across our country when it is necessary to bring 
new technology to market to identify public-private 
partnerships that could encourage quick action.
     The example I gave earlier actually I was personally 
impacted by was when I was living in California during the 
brownouts last year where hundreds of thousands of people lost 
power, everyone was talking about how we need new technologies 
to monitor the grid. And the fact is is that we have a lot of 
technologies that monitor the grid, but we don't use them to 
understand how they would be impacted by fires.
     And so the example I was giving is that PNNL has a 
particular technology that, if the foundation existed, it would 
be able to act quickly to help develop that technology in a way 
where we could use it to better understand what happens in a 
brownout when there's a fire and could we prevent it. So there 
are lots of examples like this, and so I think, yes, a 
foundation could act quickly to address these major issues.
     Mr. Lujan.  And, Dr. Reichert, in a letter of support for 
a DOE foundation, you wrote you believe in a nonprofit 
foundation at the U.S. Department of Energy. Can you elaborate 
on why private-sector engagement from the Department is 
important for commercialization and how a foundation would 
uniquely support incubators such as Greentown Labs? You're 
muted, Emily.
     Dr. Reichert.  Thank you so much for the question. As Ms. 
Wong has made clear as well, the importance of engaging the 
private sector and investment community in cleantech innovation 
can't be understated. We work with about 50 corporate partners, 
and we have direct experience in engaging them, and this has 
resulted in investments, commercial pilots, joint development 
agreements, licensing agreements for our incubated startups. 
And we're really glad to see the vision for the DOE foundation, 
and I think DOE's engagement with the private sector will much 
better inform research conducted by the labs and academic 
institutions.
     It's important for DOE to understand what barriers exist 
in the market to the deployment of new technology, and one way 
to get this information into their hands is with engagement 
with the private sector. Also understand that the foundation 
will be able to help incubators and startups work with national 
labs, and this could be beneficial for our companies because, 
often, they don't have access to the top-of-the-line equipment 
that they might access at a national lab.
     Finally, I understand the foundation will be re-granting 
organizations, and this means organizations like Greentown Labs 
will be able to receive funds from the foundation to implement 
our programs to continue to connect the private sector with 
startups and with researchers so that we can all look forward 
to a clean energy future.
     Mr. Lujan.  Thank you so much. And, Madam Chair, thank you 
again for the time and the Members of the Committee for 
allowing me to ask some questions today on some important 
legislation. And, again, these are all bipartisan ideas. I hope 
we can move them together and get these signed into law. Thank 
you and I yield back.
     Chairwoman Fletcher.  Thank you so much, Mr. Lujan. We're 
so glad to have you join us today and glad for your work on 
this important topic.
     Given that we've had several Members who had hoped to get 
additional questions answered or additional insight, I'm going 
to go ahead and do a short second round of questions for folks. 
So if you have an additional question, maybe send me a note in 
the chat. I'll try to go through, but I want to make sure I get 
to everyone for the second round.
     My--I'm going to go ahead and recognize myself first for 
five minutes in this round two of questions, and my question is 
for Ms. Benahmed. As we've discussed in various ways today, the 
COVID-19 pandemic has really exposed people and our abilities 
and our Nation's economy. Individuals and companies have been 
experiencing the pandemic and the effects of the pandemic in 
different ways, in many ways. Can you share with us what your 
research shows about the biggest challenges facing clean energy 
startups specifically from this health crisis and share your 
insights about how the United States can better compete with 
international competitors on clean energy in the wake of the 
pandemic. I would really like to get your thoughts on that.
     Ms. Benahmed.  Sure. Thank you for the question. So small 
businesses like clean energy startups are most vulnerable to 
economic downturns. They don't have cash reserves built up, 
shareholders they can lean on, access to low-cost borrowing 
like corporations, and in many cases they haven't matured into 
profitability yet. Also, many in the venture capital (VC) 
community are holding onto their cash and refraining from 
making new investment decisions. In fact, VC investment 
activity has plummeted 25 percent since the pandemic hit. As 
Dr. Reichert mentioned, clean energy entrepreneurs face 
challenges in raising capital as they struggle through project 
delays, supply chain disruption, and determine how to keep 
staff on payroll.
     Clean energy startups are more at risk during the global 
pandemic than ever before. We don't want to roll back the good 
progress we've made, and we cannot let our past net zero 
emissions be halted by the economic impacts of the pandemic. We 
need emergency relief measures for clean energy startups now, 
and we need policies that can help them grow in the long-term.
     How we can better compete, so, currently, nine other 
countries invest more in energy R&D than the United States as a 
share of GDP. For example, China invests .1 percent of its GDP 
to the United States' .04 percent. The way that we can better 
compete with other nations is to advance clean energy 
innovation. As I mentioned during my testimony, this can be 
done through substantially increasing Federal clean energy R&D, 
committing to clean energy demonstrations, and expanding tech 
transfer programs like the ones included in the Energizing 
Technology Transfer Act. Commercializing the clean energy 
technologies we need for climate change and making them cost-
competitive will give us an advantage on the global stage. 
Thank you.
     Chairwoman Fletcher.  Thank you very much, Ms. Benahmed, 
for your insights. I appreciate it. I'm going to yield the 
remainder of my time and give the opportunity to some of my 
colleagues. So going back in order of who I believe is still 
participating, if you have additional questions or if you would 
like to ask any panelists for answers to a previous question, I 
believe the next person is--that's present is Dr. Baird. Dr. 
Baird, you're recognized for additional questions----
     Mr. Baird.  Well, thank you, Madam Chair. And I would like 
to yield the other two witnesses the opportunity to address my 
question about the DOE's potential to collaborate with NSF and 
NIST as it relates to the things that they do. And I'll start 
with Ms. States and then Ms. Benahmed. Does that work?
     Ms. States.  Yes, thank you very much for the additional 
time to address that. I think one example I'll point out with 
NIST is, again, the Manufacturing Extension Partnerships, but 
that local presence and how important that is. When Maritime 
Blue was just getting started, we actually worked with our 
local NIST MEP Impact Washington, as the fiscal agent for the 
new Maritime Blue nonprofit startup, so they were critical in 
helping us in dealing with the different colors of money for 
the funding that we had to put together to make Maritime Blue 
work and for connecting us with some of the needs of the 
industry in the manufacturing sector, the shipbuilding 
community, and others. So that's just one example for NIST MEP.
     And I'd like to also go beyond and say that really it cuts 
across so many different government agencies, especially when 
you start talking about the transportation, electrification of 
transportation, use of hydrogen, so it crosses into the 
maritime, energy, and many others, which means Department of 
Transportation. We've looked at funding opportunities from both 
MARAD, the Maritime Research Administration, and the Federal 
Transit Authority and how do we electrify vessels, ferries, and 
have new modes of transportation.
     We have worked with Department of Commerce Economic 
Development Administration, which I mentioned had a partnership 
with DOE to have a specific funding opportunity for the blue 
economy clusters to provide funding for just the type of thing 
that Maritime Blue is working to enable, including spreading 
our incubator and acceleration programs for commercialization.
     And so it--and NOAA (National Oceanic and Atmospheric 
Administration) --and I can keep going. There are so many 
connection points when it comes to the blue economy across our 
Federal Government sector that really there's many 
opportunities for collaboration if we can just have the right 
enabling environment through something like the DOE foundation 
to allow those different colors--those different Federal 
agencies to come together and allow different colors of money 
to come together for the investments that we need.
     Mr. Baird.  Well, thank you. The Chairlady has my clock 
running, so I wanted to hear from the others, too, so, Farah, 
do you want to make a comment, and then, Dr. Reichert, you 
later?
     Ms. Benahmed.  Sure. I'll just say that there are 
opportunities for agencies to work together to share best 
practices. When it comes to small business innovation research 
program, DOE could work with the National Science Foundation in 
implementing their model. Currently, at DOE SBIR program 
managers are scattered across the department, and more often 
than not the SBIR program isn't their highest priority. And NSF 
runs a really great SBIR program, so I would say--I would 
encourage the collaboration between the two to ensure that 
they're optimizing their program.
     Mr. Baird.  Dr. Reichert?
     Dr. Reichert.  Yes. So I think I would add to Ms. Wong's 
comments about the Manufacturing Extension Partnership through 
NIST. I think that is a very unique resource. It exists in 
every State. We have worked quite closely with the 
Massachusetts Extension--Massachusetts MEP, and that 
organization has provided an amazing network of connections to 
manufacturers that enable clean energy startups to get their 
technology to scale. Often, they are needing everything from 
machine shops all the way to low-volume production. And without 
that critical resource, these clean energy startups would have 
a difficult time to find those manufacturers that are in every 
State but are often hard to find if you're a startup and your 
main tool to do searching is Google.
     Mr. Baird.  Thank you. Madam Chair, I was looking up 
refreshing my memory on formic acid a minute ago and it--
hydrogen, carbon [inaudible] and hydrogen, but, you know, I 
know this is a high-level discussion, but ants and stinging 
nettles, that's the toxic material in those issues. So it's 
interesting to watch science make advancements from those 
stages to where we are in the discussions we're having here. 
So, with that, I've got about 22 seconds. I thank you, Madam 
Chair. I appreciate the opportunity.
     Chairwoman Fletcher.  Well, thank you very much, Dr. 
Baird. I will now recognize Mr. Casten for five minutes 
additional questions.
     Mr. Casten.  Thanks so much, Madam Chair. I want to pivot 
a little bit away from the stuff I asked last time and a 
question for Ms. Wong and Ms. States. Over the last decade, you 
know, really at the leadership of Congress, the Department of 
Energy has made an effort to support a whole bunch of 
initiatives to accelerate commercialization of various clean 
energy technologies from ARPA-E (Advanced Research Projects 
Agency--Energy), Office of Technology Transitions, various 
Hubs, consortia, the Manufacturing Institute. Can either or 
both of you help us understand what value would a nonprofit 
energy foundation contribute that can't be accomplished through 
those existing programs?
     Ms. Wong.  Jennifer, I know that you from the private 
sector have a lot to say about this so I'll let you.
     Ms. States.  OK. I didn't want to take your time, but 
thank you. I think the enabling environment through a nonprofit 
foundation is really what is key. By having an entity that is 
outside the individual silo of the Department of Energy and 
some of the different administrative burdens that private and 
especially small private companies have a really hard time in 
complying with for both DOE and other Federal funding 
opportunities, it can create that flexibility that's needed to 
really deploy the funding opportunities faster and in a 
collaborative fashion that might come from multiple agencies. 
It can deploy those funding opportunities in a way where you 
have come together to understand better what the need is from 
the commercial side so that you can have a systematic approach 
that might cut across several different entities even within 
DOE.
     One technology office like the Vehicle Office, which could 
be a place for vessel electrification, it doesn't necessarily 
fit because they don't deal with vessels. But it comes from the 
Battery Office or MARAD, as I said. So having a foundation 
where you can bring those different players together to 
structure these opportunities in the right way to have the 
flexibility and the systematic approach I think can really 
enable this to happen.
     We have amazing staff at our Federal Government agencies 
that do their best with the bureaucracies that they have to be 
under, but having that foundation structure to enable faster 
deployment, more connected deployments I think is really going 
to help make DOE's investments work even better.
     Mr. Casten.  Ms. Wong, anything to add there--disagree, 
have a different perspective?
     Ms. Wong.  You know, I think I would just add that--and I 
only heard a little bit of it, Jennifer, so sorry if I, you 
know, repeat. But I think the idea is that you're bringing all 
these different parts of the innovation ecosystem together in a 
neutral platform where they can really understand what's going 
on across the innovation cycle and to pull those technologies 
to the market where there's real demand. And that's something 
that DOE doesn't--can't do as quickly as an outside 
organization can do because of some of the constraints related 
to accounting and budgeting and budget lines. And so I think 
that those are really important things.
     And Congress has acted over and over again when there are 
these kinds of constraints to create these quasi-governmental 
organizations. There are nine different foundations that exist 
that are similar to what DOE would have with the IMPACT 
legislation. So, this is not a new issue for many of the 
government agencies.
     Mr. Casten.  Well, I guess--and all that makes--all that 
both makes a ton of sense and makes me a little bit sad. The--
you know, if essentially what you're saying is that the nature 
of the bureaucracy in the organization means we need something 
nimble on the outside, is there--can either of you 
contemplate--and I'm not recommending this. It's just an open-
ended--is--are there ways that we could change DOE processes so 
that we wouldn't have to depend on these outside groups, or is 
it--is this just the nature of large-scale bureaucracies? Are 
we just stuck with this and this is the right way to go 
forward?
     And I don't mean that as a leading question. I'm just 
genuinely curious. If I was still CEO of a company as I was 
before and I had this problem with my own organization, I'd be 
thinking about how to make the organization more nimble, not 
how to find an outside partner.
     Ms. Wong.  I think it's a really good question and I think 
that there are things that the Department of Energy can do and 
that's why I'm very supportive of the energize bill because it 
does make a lot of really important improvements on what's 
going on within DOE. But DOE is not the private sector and they 
don't commercialize technology. It is the private sector that 
commercializes technology. And you want them to be a part of 
that conversation. That's an important part of how technologies 
make it to the market, so I think that even with the broad 
bureaucracy, you still need to engage the private sector in 
that conversation and that's what a lot of these programs are 
focused on doing.
     Mr. Casten.  Thank you. And I see my time is up. I really 
appreciate your thoughts, and I yield back.
     Chairwoman Fletcher.  Thank you, Mr. Casten. Thank you to 
all the Members for your great questions and really, thank you 
to all of our witnesses for your insights and your answers and 
your participation in this virtual event today.
     I just want to make sure that I let you know how helpful 
it is for us in reviewing this legislation, as well as thinking 
ahead about the other things that we can do in our 
Subcommittee, in our Full Committee, and of course throughout 
the Congress to advance these initiatives. So thank you so much 
for your testimony here today.
     The record will remain open for two weeks for additional 
statements from Members, for any additional questions that the 
Committee may ask of the witnesses, and for anyone, if you need 
to supplement your answers, we'll be happy to take that for the 
next two weeks.
     But at this point the witnesses are excused and the 
hearing is now adjourned.
     [Whereupon, at 3:25 p.m., the Subcommittee was adjourned]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              Appendix II

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
